         U.S. Department of Labor
         Office of Inspector General
               Office of Audit




          Performance Audit of
      Abraham Lincoln Centre
   Welfare-to-Work Competitive Grant
              For the Period
October 1, 1999 through December 31, 2001




             Final Report




                            Audit Report No. 05-03-002-03-386
                            Date Issued: March 5, 2003
Abraham Lincoln Centre Welfare-to-Work Competitive Grant




                                      Table of Contents
                                                                           Page

Acronyms                                                                     iii

Executive Summary                                                             1

Background                                                                    3

Objectives, Scope and Methodology                                             5

Other Matters                                                                 7

Findings and Recommendations                                                  9

1. Staff Costs Were Shifted from Other ALC Funding Sources to the
   WtW Competitive Grant                                                     9
2. Questioned Costs                                                         15
    A. QFSR Expenditures Overstated
    B. Audit Results of Financial Sample
    C. Ineligible Participants
3. Non-compliance with Grant Requirements                                   20
    A. Cash Management Procedures Are Not Adequate
    B. QFSR Detail Line Items Are Not Supported
4. Incomplete Cost Allocation Plan                                          24
5. Internal Controls Need To Be Strengthened                                26
6. Inadequate Participant Eligibility and Documentation                     30

Exhibit A - Financial Sample Results - Transactions with Exceptions         33

Attachment A - Abraham Lincoln Centre Response to Draft Report              43




DOL-OIG Audit Report No. 05-03-002-03-386                             ii
Abraham Lincoln Centre Welfare-to-Work Competitive Grant




                                            Acronyms
AFDC                    Aid to Families with Dependent Children

ALC                     Abraham Lincoln Centre

BTW                     Bridge-to-Work (employment and training component of ALC)

CAP                     Cost Allocation Plan

CFR                     Code of Federal Regulations

DOL                     U.S. Department of Labor

ETA                     Employment and Training Administration

FTE                     Full-time Equivalent

IDHS                    Illinois Department of Human Services

MIS                     Management Information System

OASAM                   Office of Assistant Secretary for Administration and Management

OCD                     Office of Cost Determination

OIG                     Office of Inspector General

OMB                     Office of Management and Budget

POP                     Parenting Opportunities Program

QFSR                    Quarterly Financial Status Report

TANF                    Temporary Assistance for Needy Families

WIA                     Workforce Investment Act

WtW                     Welfare-to-Work



DOL-OIG Audit Report No. 05-03-002-03-386                                        iii
Abraham Lincoln Centre Welfare-to-Work Competitive Grant




                                    Executive Summary

The Office of Inspector General (OIG) conducted a performance audit of the Welfare-to-
Work (WtW) Competitive Grant awarded to the Abraham Lincoln Centre (ALC). Our audit
objectives were to determine the validity of an allegation that staff costs were shifted from
other funding sources to ALC’s WtW Competitive Grant program by falsifying or altering
time records and whether ALC was in compliance with the WtW grant agreement and
applicable laws and regulations.

ALC reported costs of $2,741,253 in support of 800 participants served for the period
October 1, 1999 through December 31, 2001. We tested a judgmental sample of staff
salaries and fringe benefits, as well as administrative, program, and consultant costs, totaling
$879,142. We tested 50 participants to determine if they met program eligibility
requirements. We also reviewed the ALC’s compliance with grant requirements and
applicable laws and regulations. However, our selective testing was not designed to express
an opinion on ALC’s Quarterly Financial Status Report (QFSR).

We were unable to conclude that the ALC staff time records were falsified or altered as
alleged. However, we found payroll costs charged to the WtW grant included more
employees than authorized, were not properly supported by source documentation in
accordance with Office of Management and Budget (OMB) Circular A-122, and, in certain
cases, were initially accumulated in other programs and then reallocated to the grant.

We also found:

    •   questioned costs totaling $1,259,974 consisting of an excess QFSR claim of
        $393,952, audit sample results of $865,594, and ineligible participant expenses of
        $428;
    •   excessive cash drawdowns of at least $316,587;
    •   a lack of compliance with grant reporting and allocation requirements;
    •   no approved Cost Allocation Plan (CAP) for allocating shared program costs;
    •   weak internal controls within ALC’s accounting, payroll, and reporting systems, and
    •   eight ineligible and six misclassified participants.

We tested 36 percent of ALC’s general ledger expenditures charged to the WtW grant and
questioned 98 percent of the associated costs. Based upon this high percentage of
questioned costs, we believe that the Employment and Training Administration (ETA)
should review the remaining costs not tested to ensure these costs have been incurred in
accordance with the terms of the grant agreement.

DOL-OIG Audit Report No. 05-03-002-03-386                                            1
Abraham Lincoln Centre Welfare-to-Work Competitive Grant



In summary, we recommend that the Assistant Secretary for Employment and Training:

    •   recover questioned costs of $1,259,974;
    •   review the remaining $1,544,982 (costs not tested) to ensure these costs have been
        incurred in accordance with the terms of the grant agreement;
    •   instruct the ALC to implement a time distribution system in accordance with OMB
        Circular A-122, provide a full accounting of all payroll charged to major ALC
        funding sources [including two other U.S. Department of Labor (DOL) funding
        sources], and complete appropriate adjustments;
    •   restrict further cash drawdowns until ALC properly accounts for the WtW grant
        expenditures; and
    •   direct the ALC to:
        o maintain and report accurate financial and participant data on the QFSR, and
            correct management information system (MIS) inaccuracies,
        o develop a CAP and obtain the approval of DOL’s Office of the Assistant
            Secretary for Administration and Management, Office of Cost Determination
            (OASAM-OCD),
        o strengthen internal controls within ALC’s accounting, payroll, and reporting
            systems,
        o correct their MIS and QFSR to reflect the ineligible and misclassified
            participants, and
        o implement procedures to ensure evidence of public assistance and/or insufficient
            income prior to servicing clients.

ALC generally disagreed with our finding to recover questioned costs and generally agreed
to take corrective actions to improve their systems.

Our complete detailed findings and recommendations are contained in the body of the
report.




DOL-OIG Audit Report No. 05-03-002-03-386                                       2
Abraham Lincoln Centre Welfare-to-Work Competitive Grant




                                          Background

                       The Personal Responsibility and Work Opportunity Reconciliation
  Objective of         Act of 1996 established the Temporary Assistance for Needy Families
 Welfare-to-Work       (TANF) program. The TANF provisions substantially changed the
                       nation=s welfare system from one in which cash assistance was
provided on an entitlement basis to a system in which the primary focus is on moving
welfare recipients to work and promoting family responsibility, accountability and self-
sufficiency. This is known as the Awork first@ objective.

Recognizing that individuals in TANF may need additional assistance to obtain lasting jobs
and become self-sufficient, the Balanced Budget Act of 1997 amended certain TANF
provisions and provided for WtW grants to states and local communities for transitional
employment assistance, which moves hard-to-employ TANF welfare recipients into
unsubsidized jobs and economic self-sufficiency.

The Welfare-to-Work and Child Support Amendments of 1999 allow grantees to more
effectively serve both long-term welfare recipients and noncustodial parents of low-income
children.

Of the $3 billion budgeted for the WtW program in Fiscal Years 1998 and 1999,
$694 million was awarded through three rounds of competitive grants to local communities.

     ALC’s              On September 30, 1999, ALC received a $5,000,000 WtW
 Competitive Grant      Competitive Grant with a period of performance from
                        October 1, 1999 through June 30, 2002.

The grant=s service strategy focuses on building bridges to employment for noncustodial
parents by encouraging lifelong learning, and providing 650 participants with job readiness
activities, job placement within targeted industries, post-employment training, job retention/
support services, and case management services in order to place 450 of the participants into
unsubsidized employment. The grant was administered by ALC’s Bridge-to-Work (BTW)
component and funded the Parenting Opportunities Program (POP).

                      In addition to the provisions of the Balanced Budget Act of 1997,
  Principal Criteria  DOL issued regulations found in 20 CFR 645. Interim Regulations
                      were issued November 18, 1997. Final Regulations were issued on
January 11, 2001 and became effective April 13, 2001. Also on April 13, 2001, a new
Interim Final Rule became effective, implementing the Welfare-to-Work and Child Support

DOL-OIG Audit Report No. 05-03-002-03-386                                          3
Abraham Lincoln Centre Welfare-to-Work Competitive Grant



Amendments of 1999. This resulted in changes in the participant eligibility requirements
for competitive grants, effective January 1, 2000.

The ETA administers the WtW program.

As a nonprofit, ALC is required to follow general administrative requirements contained in
OMB Circular A-110 (codified in DOL regulations at 29 CFR 95) and OMB Circular A-122
requirements for determining the allowability of costs.

                       In March 2000, we issued a report on the results of a postaward survey
Postaward Survey
                       of the ALC. The report identified several issues pertaining to the
                       administration of the grant. We found that ALC had not taken
                        corrective action on the following:

                    !"Develop written policy and procedures for activity (time distribution)
                      reports that will include staff time spent on the cost categories in the
                      grant reporting requirements [See Finding Nos. 1 (page 9) and
                      3B (page 20)]

                    !"Modify your accounting system or develop a subsidiary system to
                      record and track costs separately for the hard to employ individuals
                      and individuals with long-term welfare dependence characteristics
                      [See Finding No. 3B (page 20)]

                    !"Develop written policies and procedures that fully define
                      administrative costs and ensure that all administrative costs are
                      reported accurately [See Finding No. 3b (page 20)]

                    !"Modify or supplement your cost allocation plan to carry the allocation
                      of shared costs to the 70 percent minimum/30 percent maximum
                      categories of the grant. Your cost allocation plan, including the
                      distribution of indirect costs, should have Federal approval [See
                      Finding No. 4 (page 24)]

                    !"Develop written policies and procedures for recording and tracking
                      the information required on the Cumulative Quarterly Financial
                      Status Report and preparing the report in a timely manner [See
                      Finding Nos. 2A (page 15), 3B (page 20), and 5 (page 27)]




DOL-OIG Audit Report No. 05-03-002-03-386                                           4
Abraham Lincoln Centre Welfare-to-Work Competitive Grant




                          Objectives, Scope and Methodology

                        The objectives of this performance audit were to determine the
     Objectives         validity of the allegation that staff costs were shifted from other
                        funding sources to ALC’s WtW Competitive Grant program by
                        falsifying or altering time records and whether the ALC was in
                        compliance with the WtW grant agreement and applicable laws and
                        regulations.

  Audit Scope and       Our audit scope was initially October 1, 1999 through
   Methodology          September 30, 2001. As a result of a high error rate in testing
                        financial transactions, our scope was extended through
                        December 31, 2001. Our audit included financial and programmatic
                        activities that occurred from October 1, 1999 through
                        December 31, 2001.

Management Controls

To meet the objectives, we reviewed ALC’s management and financial controls over
relevant transaction cycles as well as the most recent OMB Circular A-133 Audit Reports.
Our work on established management controls included obtaining and reviewing policies
and procedures manuals, interviewing key personnel, and reviewing selected transactions to
observe controls in place. Our testing related to management controls was focused only on
the controls related to our audit objectives of reviewing the reported cost and performance
data and was not intended to form an opinion on the adequacy of management controls, and
we do not render such an opinion. Weaknesses noted in our testing are discussed in the
Findings and Recommendations section of this report.

Compliance with Laws and Regulations

In order to determine compliance with laws and regulations cited on pages 3 and 4, we
performed detailed tests of transactions and tested a sample of participants who were
enrolled in the program during our audit period. Our detailed tests of transactions included
both analytical review and substantive tests of accounts. Our testing related to compliance
with laws and regulations was focused only on the laws and regulations relevant to our audit
objectives of reviewing the reported cost and performance data and was not intended to
form an opinion on the compliance with laws and regulations as a whole, and we do not
render such an opinion. Instances of non-compliance are discussed in the Findings and
Recommendations section of this report.


DOL-OIG Audit Report No. 05-03-002-03-386                                          5
Abraham Lincoln Centre Welfare-to-Work Competitive Grant



Sampling

As part of our audit planning, we conducted a vulnerability assessment of the financial
management, participant eligibility, and cost allocation to determine if we could limit the
audit procedures in any of these areas. As a result of the vulnerability assessment and our
review of the ALC books of record and MIS, judgmental sampling was chosen as our
sampling methodology. We did not intend our testing to be a representative sample and did
not project to the entire universe of financial transactions or participants. In addition, our
selective testing was not designed to express an opinion on ALC’s QFSR.

Of the $2,741,253 claimed costs reported on the QFSR as of December 31, 2001, we
selected 118 transactions for audit totaling $879,142. These transactions included staff
salaries and fringe benefits, as well as administrative, program, and consultant costs. We
also selected 2 credit transactions for audit that reduced payroll expenditures by $1,020 and
$45,856, respectively.

ALC reported 800 participants on the QFSR as of December 31, 2001. Initial testing of
participants revealed that some did not meet the ETA definition of Aparticipant served.@ The
ALC officials subsequently confirmed that 211 of the reported 800 did not meet ETA=s
definition. Consequently, the adjusted universe of participants served was determined as
589 (800 less 211). Of this adjusted universe of 589 participants, only 11 were served prior
to January 1, 2000. We selected a sample of 50 participants – 5 enrolled before
January 1, 2000 and 45 enrolled from January 1, 2000 through December 31, 2001. This
was necessary because of a change in participant eligibility requirements, effective
January 1, 2000.

We conducted our audit in accordance with Government Auditing Standards issued by the
Comptroller General of the United States. We conducted fieldwork from January 15 to
April 11, 2002, at the offices of ALC.




DOL-OIG Audit Report No. 05-03-002-03-386                                           6
Abraham Lincoln Centre Welfare-to-Work Competitive Grant




                                        Other Matters
Our audit resulted in the discovery of other matters that affect the accounting and oversight
of other Federal funds.

Illinois Department of Human Services (IDHS) Contract with ALC

On October 13, 1999, the IDHS and ALC entered into a placement and retention
performance-based contract for servicing IDHS clients at two locations. The contract’s
period of performance was July 1, 1999 through June 30, 2000. The contract amount was
$1,960,591 and required ALC to service and place clients from six IDHS offices within
Chicago and from two IDHS offices in southern suburban Cook County. ALC serviced
clients at the BTW main office located at 700 E. Oakwood Boulevard in Chicago, Illinois
and at a satellite BTW office located in Harvey, Illinois. While all BTW programs were
active at the main office, ALC officials informed us that the only active programs at the
Harvey office were funded through the IDHS contract and the WtW Competitive Grant.

Between July and September 1999, IDHS documentation indicates that ALC received
$242,512 in support of this contract. In April 2000, ALC also received $917,963 from
IDHS for a total of $1,160,475.

In May and June 2000, IDHS amended the contract by extending the period of performance
through June 30, 2001 and reducing the total contract amount to $1,160,475. The amended
contract also established deliverables/work off schedules to incur stand-in costs required to
achieve the $1,160,475 received by ALC. However, ALC did not fully meet the
deliverables/work off schedules as agreed in the amended contract. As of January 2002,
ALC records indicated that they worked off $933,514 of the amended contract amount.
Also in January 2002, IDHS and ALC were negotiating additional work to be performed for
the remaining $226,961 of the amended contract. ALC offered to perform services on
behalf of IDHS clients from February through June 2002 to complete the work off balance
of the amended contract.

Other DOL Funding Sources [WtW pass-through funding, Workforce Investment Act
(WIA) Adult Services, WIA Youth Services]

ALC is operating programs funded through other DOL funding streams including:

    •   Chicago Works program, funded by another WtW Competitive grant’s pass-through
        monies administered by the City of Chicago, Mayor’s Office of Workforce
        Development.

DOL-OIG Audit Report No. 05-03-002-03-386                                           7
Abraham Lincoln Centre Welfare-to-Work Competitive Grant



    •   The WIA Adult and Youth Services grant pass-through monies also administered by
        the City of Chicago, Mayor’s Office of Workforce Development.

Single Audit Reports

The Single Audit Report for the years ended June 30, 2000 and June 30, 2001 indicated that
ALC had no material internal control weaknesses or compliance findings and the WtW
Competitive Grant was considered a major program.




DOL-OIG Audit Report No. 05-03-002-03-386                                       8
Abraham Lincoln Centre Welfare-to-Work Competitive Grant




                            Findings and Recommendations

          1. Staff Costs Were Shifted From Other ALC Funding Sources to the
                               WtW Competitive Grant

In July 2001, ETA formally notified the OIG of an allegation from an anonymous source
that ALC staff time was being incorrectly reported, recorded, allocated, and shifted to the
WtW Competitive Grant through falsification or alteration of time records. We performed
fieldwork to determine the merits of the allegation. We were unable to conclude that the
time records were falsified or altered as alleged. However, we found grant payroll costs
included more employees than authorized, were not properly supported by source
documentation in accordance with OMB Circular A-122, and, in some cases, were initially
accumulated in other programs and then reallocated to the grant.

OMB Circular A-122, Attachment A requires allowable costs to be reasonable for the
performance of the award, be allocable in accordance with the relative benefits received, and
be adequately documented. Any cost allocable to a particular award may not be shifted to
other Federal awards to overcome funding deficiencies, or to avoid restrictions imposed by
law or terms of the award. Attachment B.7.m (1) and (2) further defines adequate support of
salaries and wages:

        …The distribution of salaries and wages to awards must be supported be personnel
        activity reports…Reports reflecting the distribution of activity of each employee must
        be maintained for all staff members (professionals and nonprofessionals) whose
        compensation is charged, in whole or in part, directly to awards…The reports must
        reflect an after-the-fact determination of the actual activity of each employee.
        Budget estimates (i.e. estimates determined before the services are performed) do
        not qualify as support for charges to awards. Each report must account for the total
        activity for which employees are compensated … The reports must be prepared at
        least monthly and must coincide with one or more pay periods….




DOL-OIG Audit Report No. 05-03-002-03-386                                          9
Abraham Lincoln Centre Welfare-to-Work Competitive Grant



We determined that ALC-BTW was operating six major programs during our audit period
and was accumulating costs within the following program codes, respectively:

                                             TABLE 1a
                                                                   PERIOD OF          FUNDING
 FUNDING SOURCE               PROGRAM OPERATING                     FUNDING           AMOUNT
                           Placement and retention             July 1, 1999 through
Illinois Department of     performance-based contract –           June 30, 2000 -
Human Services             south side of Chicago                   extended thru        $509,207
                           (ALC Program Code 703)                  June 30, 2001
                           Placement and retention             July 1, 1999 through
Illinois Department of     performance-based contract –           June 30, 2000 -
Human Services             south suburban Cook County              extended thru        $651,268
                           (Harvey)(ALC Program Code 704)          June 30, 2001
Welfare-to-Work            Parenting Opportunities Program       October 1, 1999
Competitive Grant          (ALC Program Codes 705 & 706)      through June 30, 2002    $5,000,000
Mayor’s Office of
Workforce Development      Workforce Investment Act Adult     July 1, 2000 through
(DOL Funding)              Services (ALC Program Code 707)       June 30, 2002          $237,000
Mayor’s Office of          Chicago Works - funded by
Workforce Development      another WtW grant’s pass-through   June 1, 2000 through
(DOL Funding)              funds (ALC Program Code 708)          Dec. 31, 2002         $1,227,000
City of Chicago Dept. of   Service Connector                  June 1, 2001 through
Human Services             (ALC Program Code 710)                Dec. 31, 2002          $777,705

As of December 31, 2001, ALC’s general ledger documented total WtW grant expenditures
of $2,425,986 of which payroll costs ($1,362,030) represented 56 percent of the total. We
reviewed 14 payroll-related transactions whose dollar amount represented 51 percent of our
audit sample. The 14 selected payroll-related transactions included seven payrolls, five
reallocations of expenditures, and two expenditure reduction adjustments (i.e. credit
transactions). The audit results are as follows:

A. Payroll Testing

The WtW grant budget allowed ALC to fund 32 BTW employees’ salaries: 10 employees
in full; 21 employees at 50 percent; and the BTW Executive Director at 10 percent (first line
of Table 1b). However, for our sampled pay periods, ALC charged a total of 66 different
employees’ salaries to the WtW grant. ALC personnel records indicated that 15 of these
employees were hired to work for the Service Connector program and an additional 10
employees were designated to be working solely on other funded BTW programs as of
September 2001.

We selected seven payrolls for audit as presented on the next page:


DOL-OIG Audit Report No. 05-03-002-03-386                                               10
Abraham Lincoln Centre Welfare-to-Work Competitive Grant



                                                             TABLE 1b
                                    Total Employees         BTW                                 Full-Time                 FTE
  Pay Period        Total BTW        Charged to the       Employees           Employees         Equivalent    Total     Variance
    Ending          Employees         WtW Grant            in Full              In Part           (FTE)       FTEs     from 20.60
Grant Budget                                                             21 at 50 percent=            10.50
(authorized)                                       32              10    1 at 10 percent=              0.10   20.60           N/A
                                                                         1 at 85 percent=              0.85
                                                                         1 at 75 percent=              0.75
April 30, 2000                26                    1               6    1 at 60 percent=              0.60   12.00         (8.60)
                                                  17
                                                                         6 at 50 percent=              3.00
                                                                         2 at 40 percent=              0.80
                                                                         1 at 75 percent=              0.75
April 15, 2001                19                    2              19    1 at 4 percent=               0.04   19.79         (0.81)
                                                  21
July 31, 2001                 22                   22              21    1 at 75 percent=              0.75   21.75           1.15
Sept. 15, 2001                36                   34              32    2 at 75 percent=              1.50   33.50          12.90
                                                                         2 at 75 percent=              1.50
Sept. 30, 2001                40                   40              37    1 at 55 percent=              0.55   39.05          18.45
Oct. 31, 2001                 42                   42              42             0                       0      42          21.40
Nov. 30, 2001                 48                   48              48             0                       0      48          27.40


                                                             TABLE 1c
                                                                Total BTW Payroll             Percentage of BTW
                    Pay Period             Total BTW          Costs Charged to the           Payroll Costs Charged
                      Ending              Payroll Costs            WtW Grant                   to the WtW Grant
                 April 30, 2000           $      49,549       $            26,049                        53 percent
                 April 15, 2001                  29,522                    29,522                      100 percent
                 July 31, 2001                   30,616                    30,303                        99 percent
                 Sept. 15, 2001                  48,457                    44,937                        93 percent
                 Sept. 30, 2001                  53,247                    52,570                        99 percent
                 Oct. 31, 2001                   60,555                    60,555                      100 percent
                 Nov. 30, 2001                   70,781                    70,781                      100 percent
                 Totals                   $     342,727       $           314,717                        92 percent

Although BTW was operating five other programs, the WtW grant was charged
approximately 92 percent of the total BTW payroll costs during our sampled pay periods.

We believe the WtW grant was charged more than its fair share of BTW’s payroll costs
considering the number of active programs and employees specifically identified with those
projects. We attempted to review the employees’ personnel activity reports to determine
reasonableness of the labor hours charged to the grant. However, ALC Finance and BTW
officials stated that employees did not complete after-the-fact personnel activity reports (i.e.
time distribution sheets) in accordance with OMB Circular A-122, notwithstanding our
March 2000 recommendation.



1
    One employee partially charged to the grant worked in the ALC Finance Office, and not in BTW
2
    Two employees partially charged to the grant worked in the ALC Finance office, and not in BTW


DOL-OIG Audit Report No. 05-03-002-03-386                                                                             11
Abraham Lincoln Centre Welfare-to-Work Competitive Grant



As a result, we are unable to determine whether the employees charged to the grant actually
worked on grant activities. Therefore, we question all $314,717 of payroll expenditures for
the seven pay periods we tested (See Table 1c on page 11 and Exhibit A, Section D on
page 38).

B. Reallocations of Expenditures

We selected the following five reallocations of payroll expenditures charged to the WtW
grant for audit:

                                                        TABLE 1d
                                                         Originating Program     Charged WtW        Questioned      Ref.
          Date                   Description                    Code             Program Code          Cost         Page
      November 30,1999     Unsupported Journal Entry   IDHS Program Code 703          705             $ 37,7931      33

      November 30, 1999    Unsupported Journal Entry   IDHS Program Code 703          705                 36,5941    33
                           Inadequate Documentation
           June 30, 2000   for Payroll Allocation      WtW Program Code 705           7062                46,3691    38

           July 30, 2000   Other Program Costs         IDHS Program Code 704          705                 13,4261    38

      September 28, 2000   Other Program Costs         IDHS Program Code 704          705                  1,8631    38
                                                                         Totals for Reallocations     $ 136,045
                           Related Non-sampled
      September 28, 2000   Questioned Costs            IDHS Program Code 703          705             $    1,8621


For the November 1999 reallocations, ALC officials could not provide source
documentation to support the expenditures. Instead, they could only provide an unsupported
journal entry.

For the June 2000 reallocation, we were not provided any source documentation to support
the expenditure. We were not provided the basis for allocation to program code 706 (for
“other eligibles” costs), how the pool of personnel costs was calculated prior to allocation,
or where the individual personnel costs within this pool originated (direct charge to program
code 705 and/or reallocations from other program sources).

For the July 2000 reallocation, payroll costs were initially accumulated in IDHS program
code 704 and then reallocated to the grant. ALC officials could not provide source
documentation to support the reallocation to the WtW grant.



1
    The questioned cost for each item can be traced to Exhibit A and is summarized in Table 2a on page 16.
2
    WtW program code established for tracking 30% costs attributable for serving “other eligibles” participants.

DOL-OIG Audit Report No. 05-03-002-03-386                                                                    12
Abraham Lincoln Centre Welfare-to-Work Competitive Grant



For the September 2000 reallocation, the expense was the result of a former employee’s
legal settlement with ALC. This cost was originally allocated to the WtW grant (at
50 percent) and to both IDHS program codes 703 and 704 (25 percent to each code). Our
sampled reallocation resulted from ALC transferring the cost of this legal settlement initially
charged in program code 704 to the WtW grant. Further, we determined that ALC not only
reallocated the sampled expense but also reallocated the associated expense initially charged
in program code 703 to the WtW program. We question both the sampled reallocation
($1,863) and an additional $1,862 for the associated expense reallocated from program code
703 as indicated in Finding No. 2 [see Table 2b on page 16; Exhibit A, Section F (page 38);
and Exhibit A, Summary (page 42)].

C. Expenditure Reduction Credits

We selected two payroll credit transactions for audit. Both credits transferred accumulated
WtW payroll expenditures to other funding sources. However, ALC was unable to provide
the audit trail as to the basis for the credits or the originating documentation supporting the
credits. 29 CFR 95.21(b)(7) requires ALC’s accounting records to be supported by source
documentation.

Recommendation

We recommend that the Assistant Secretary for Employment and Training instruct the ALC
to:
    a. implement a time distribution system in accordance with OMB Circular A-122, and

    b. provide a full accounting of all payroll charged to major ALC funding sources
       (including two other DOL funding sources) and complete appropriate adjustments.

ALC’s Response

ALC disagrees that staff costs were shifted from other ALC funding sources to the WtW
Competitive Grant. ALC incurred costs to operate the DOL WtW Competitive grant that
were fairly presented in accordance with Generally Accepted Accounting Principles and
were audited in accordance with Generally Accepted Auditing Standards and Government
Auditing Standards.

ALC recognizes that they can improve their systems. By January 2003, ALC will design
and implement a time distribution system in accordance with OMB Circular A-122 and




DOL-OIG Audit Report No. 05-03-002-03-386                                            13
Abraham Lincoln Centre Welfare-to-Work Competitive Grant



29 CFR 95. ALC will also provide a full accounting of all payroll charged to major funding
sources and complete appropriate adjustments. Additional cost to DOL may occur as a
result of this process.

OIG’s Conclusion

We applaud ALC’s effort to design and implement a time distribution system in accordance
with OMB Circular A-122 and 29 CFR 95. However, ALC did not provide any
documentation to change our finding that the grant payroll costs included more employees
than authorized, were not properly supported by source documentation in accordance with
OMB Circular A-122, and in some cases, were initially accumulated in other programs and
then reallocated to the grant.

Therefore, we consider the finding unresolved and our recommendations remain unchanged.




DOL-OIG Audit Report No. 05-03-002-03-386                                       14
Abraham Lincoln Centre Welfare-to-Work Competitive Grant



                                      2. Questioned Costs

We question $1,259,974 or 46 percent of the $2,741,253 claimed by ALC. The questioned
costs include an over-reporting of expenditures on the QFSR ($393,952); unsupported,
inadequately supported, and unallowable costs ($865,594); and costs associated with
ineligible participants ($428) as documented in Finding No. 6.

A. QFSR Expenditures Overstated

The ALC submitted a QFSR, dated February 25, 2002, claiming $2,741,253 of grant
expenditures through December 31, 2001. For the same period, ALC’s general ledger
documented cumulative grant expenditures of $2,425,986. Consequently, the QFSR
expenditures were overstated by $315,267.

29 CFR 95.21(b)(1) states:

        Recipients’ financial management systems shall provide … Accurate, current and
        complete disclosure of financial results of each federally-sponsored project or
        program in accordance with the reporting requirements…; and (7) adds:
        Accounting records including cost accounting records that are supported by source
        documentation.

ALC officials were unable to provide the cause of this excessive claim, but did indicate that
they do not have a complete understanding of ALC’s automated accounting system due to
recent staff turnover. The over-reporting of expenditures circumvents ETA’s ability to
prevent excessive cash drawdowns.

In response to the Draft Report, ALC submitted a revised general ledger for the period
October 1 through December 31, 2001. The general ledger’s expenditures were reduced by
$78,685. Consequently, cumulative grant expenditures for the audit period were
$2,347,301. Therefore, the QFSR expenditures were overstated by an additional $78,685, or
$393,952 in total.

B. Audit Results of Financial Sample

We selected 120 transactions for audit totaling $879,142, or 36 percent of cumulative grant
expenditures ($2,425,986) as documented in the ALC general ledger (as of January 2002).
Our audit disclosed that 95 percent of the sampled transactions resulted in inadequately
supported and/or unallowable costs totaling $863,732, or 98 percent of sampled costs. We
also question an additional $1,862 related to a personnel transaction in our sample for total


DOL-OIG Audit Report No. 05-03-002-03-386                                           15
Abraham Lincoln Centre Welfare-to-Work Competitive Grant



questioned costs of $865,594. Based upon this high percentage of questioned costs, we
believe that ETA should review the remaining costs not tested to ensure these costs have
been incurred in accordance with the terms of the grant agreement.

The results of our audit are presented in Tables 2a and 2b below:
                                                               TABLE 2a
                             Payroll (p)/           Direct Program/     Consultant/                        1
                         Fringe Benefits (f)          Participant       Contracting          Administration            Totals
     Description         No.      Amount            No.     Amount    No.    Amount         No.     Amount       No.     Amount
No supporting
documentation             1      $ 4,173 (f)         3      $    9,190                      10     $    31,983    14     $ 45,346
Unsupported                         4,868 (f)
journal entries           4        74,387 (p)        1           7,464   3     $ 17,696     13         144,551    21      248,966
Inadequate
documentation/
Excessive cost                         422 (f)       5          17,209   7         32,156   20          62,766    32      112,553
Inadequate
documentation for pay
periods                   7       314,717 (p)                                                                      7      314,717
Inadequate
documentation /
Payroll Allocation        1         46,369 (p)                                                                     1       46,369
                                       473 (f)
Other Program Costs       2         15,289 (p)       4           8,352   4         11,795    2           8,797    12       44,706
Shared Costs
Not Allocated                        1,391 (f)       5          23,122   3          4,538   11          22,024    19       51,075
Transactions With
Multiple Errors and/or
              2
Allowed Costs             2                          3                                       1                     6
Credit Transactions       2                                                                                        2
Transactions and                 $ 11,327 (f)
Amount Questioned         19     $450,762 (p)        21    $ 65,337      17    $ 66,185     57     $   270,121   114    $ 863,732
Allowed
Transactions / Costs                1,080 (f)        3           6,191                       3           8,139     6       15,410
GRAND TOTALS                     $ 12,407 (f)
FOR SAMPLE                19     $450,762 (p)        24    $ 71,528      17    $ 66,185     60     $   278,260   120    $ 879,142



                                                                TABLE 2b

                                                 Amount Questioned in Sample (from above)                               $ 863,732

 Related Non-sampled Questioned Costs --relates to Sample Item No. 42 (see pp. 38 and 42)                                   1,862

Total Questioned Costs – Results Of Financial Sample                                                                    $ 865,594



1
  The ALC did not track program or administrative costs in their accounting system (see Finding No. 3B).
Consequently, we categorized transactions into the appropriate category for attribute testing based upon the
type of cost encountered in the general ledger and/or by review of the source documentation. For certain
transactions, we were unable to determine the exact cost classification category for testing and categorized
these transactions within Administration.
2
  The costs associated with each type of error are already included in each error description above.

DOL-OIG Audit Report No. 05-03-002-03-386                                                                         16
Abraham Lincoln Centre Welfare-to-Work Competitive Grant



We determined that 114 transactions were not in compliance with 29 CFR 95, OMB
Circular A-122, or ALC’s accounting policies and procedures (see Exhibit A for details).
Therefore, we question $865,594.

C. Ineligible Participants

We question $428 of direct transportation costs associated with servicing eight participants
considered ineligible in Finding No. 6. ALC’s participant MIS indicated that $428 of
transportation costs were provided on behalf of the eight participants. However, it was not
possible to trace the transportation costs by participant through the ALC accounting system.

Recommendation

We recommend that the Assistant Secretary for Employment and Training:

    a. recover $1,259,974 of questioned costs resulting from:

            !"an over-reporting of expenditures on the QFSR ($393,952),

            !"inadequately supported and unallowable costs found in the audit sample of
              the ALC financial transactions charged to the grant ($865,594), and

            !"transportation costs in support of 8 ineligible participants ($428) as presented
              in Finding No. 6, and

    b. review the remaining $1,544,982 (costs not tested) to ensure these costs have been
       incurred in accordance with the terms of the grant agreement.

ALC’s Response

A. QFSR Expenditures Overstated

ALC did not over-report expenditures of $315,677 ($315,267) on the QFSR. Expenditures
reported on the QFSR are in agreement with general ledger expenditures as follows on the
next page:




DOL-OIG Audit Report No. 05-03-002-03-386                                           17
Abraham Lincoln Centre Welfare-to-Work Competitive Grant



     Expenditure Item                      Time Period                        Costs
      General Ledger               Three months ending 12/31/01                    $698,533
      General Ledger               Three months ending 9/30/01                       315,957
Independent Financial Audit            Year ending 6/30/01                           910,685
Independent Financial Audit            Year ending 6/30/00                           816,207
          Total                                                                  $2,741,2531

B. Audit Results of Financial Sample

ALC strongly disagrees with the questioned costs. All costs were incurred to support the
program operations and were valid and properly charged. ALC is dismayed that DOL
contemplates the disallowance of these costs. Prior audits by City, State, and other
independent auditors validate ALC’s costs.

ALC provided documentation for 24 previously unsupported sampled items.

C. Ineligible Participants

ALC concurs that seven of eight participants were ineligible. ALC obtained evidence from
the Non-custodial Parent unit and IDHS system to render one client fully eligible at time of
enrollment. This participant incurred $5 of transportation costs. Consequently, questioned
costs should be reduced to $423.

OIG’s Conclusion

A. QFSR Expenditures Overstated

To address ALC’s response, we requested a detailed general ledger listing of expenditures
for the three months ending December 31, 2001 in support of ALC’s $698,533 claim in their
response. ALC provided the requested general ledger listing, dated December 13, 2002, that
documented expenditures at $303,830, not $698,533.

ALC stated the discrepancy is the result of different system parameters selected at the time
the original report was generated.




1
    Total is actually $2,741,382

DOL-OIG Audit Report No. 05-03-002-03-386                                          18
Abraham Lincoln Centre Welfare-to-Work Competitive Grant



Using the December 13, 2002 general ledger listing for the three months ending
December 31, 2001, we determined that ALC over-reported expenditures by $393,952. The
$2,347,301 of expenditures per ALC’s general ledger is calculated below:

 General Ledger                      Time                                  Documented
 Program Code                       Period                                 Expenditures
      705                July 1, 1999 – June 30, 2000                               $710,233
      706                July 1, 1999 – June 30, 2000                                105,974
      705                July 1, 2000 – June 30, 2001                                911,307
      705             July 1, 2001 – September 30, 2001                              315,957
      705            October 1, 2001 – December 31, 2001                             303,830
  Total Expenditures Documented in ALC’s General Ledger                           $2,347,301

B. Audit Results of Financial Sample

Our review of the documentation provided by ALC resulted in a $6,083 reduction of
questioned costs and the modification of 21 sampled item exceptions from no supporting
documentation to other categories of questioned cost (i.e. inadequate documentation, other
program expense, etc.). The changes have been incorporated within this report.

It was noted that 95 percent of the sampled transactions were not in compliance with
29 CFR 95, OMB Circular A-122, or ALC’s accounting policies and procedures.

C. Ineligible Participants

Until ETA can confirm one participant’s eligibility, all eight participants remain ineligible.

Therefore, our recommendations remain unchanged.




DOL-OIG Audit Report No. 05-03-002-03-386                                            19
Abraham Lincoln Centre Welfare-to-Work Competitive Grant



                        3. Non-compliance With Grant Requirements

ALC did not always comply with grant requirements regarding cash management and QFSR
reporting.

A. Cash Management Procedures Are Not Adequate

                        ALC obtained excessive cash from the grant as compared to
    ALC obtained        booked expenditures. As of December 31, 2001, ALC’s QFSR
  $316,587 of excess    reported expenditures were $2,741,253 while ALC’s revised
  cash from the grant   general ledger documented cumulative grant expenditures of
                        $2,347,301. ALC had accumulated cash drawdowns of $2,663,888
from the grant through December 31, 2001. We concluded that ALC had obtained at least
$316,587 ($2,663,888 less $2,347,301) of excess cash as of December 31, 2001.

29 CFR 95.22 (a) states:

        Payment methods shall minimize the time elapsing between the transfer of funds
        from the United States Treasury and the issuance or redemption of checks…by the
        recipients…. (b)(2) states …Cash advances to the recipient organization shall be
        limited to the minimum amounts needed and be timed to be in accordance with the
        actual, immediate cash requirements of the recipient organization in carrying out
        the purpose of the approved program or project.

ALC obtained the excess cash prior to an existing bona fide need to meet grant related
disbursements. We found a general pattern that ALC would transfer cash from the bank
account established for BTW to the ALC operating and payroll accounts of another bank.
We also determined that all BTW revenues, in addition to the WtW Competitive Grant,
were processed through the bank account established for WtW. Therefore, the individual
cash balances of each BTW funding source lose their identity through the process of
transferring funds to ALC’s operations and payroll accounts of the other ALC bank.

B. QFSR Detail Line Items Are Not Supported

                               We were unable to reconcile WtW expenditure line item
  QFSR detail line items       categories as reported on the December 31, 2001 QFSR to
   do not reconcile to         ALC’s financial records. These line items included 70 percent
  general ledger or MIS        and 30 percent expenditures, and administrative versus
                               program expenditures.



DOL-OIG Audit Report No. 05-03-002-03-386                                         20
Abraham Lincoln Centre Welfare-to-Work Competitive Grant



20 CFR 645.211 states:

        . . . may spend not more than 30 percent of the WtW funds allotted to or awarded to
        the operating entity to assist individuals who meet the Aother eligibles@ eligibility
        requirements . . . The remaining funds allotted to or awarded to the operating entity
        are to be spent to benefit individuals who meet the Ageneral eligibility@ and/or
        Anoncustodial parents@ eligibility requirements . . .

20 CFR 645.235(a)(2) states:

        . . . The limitation on expenditures for administrative purposes under WtW
        competitive grants will be specified in the grant agreement but in no case shall the
        limitation be more than fifteen percent (15%) of the grant award.

The ALC has not incorporated the QFSR expenditure reporting requirements into the
accounting system nor has ALC staff maintained an audit trail from reported QFSR line
items to source documentation. Furthermore, the ALC staff was unable to document which
expenditures in the general ledger were associated with 70 percent and 30 percent
expenditures, or with administrative versus program expenditures (Our March 2000 report
recommended these changes). As a result, it was not possible to reconcile any QFSR detail
line item expenditures to the financial records. The breakdown of expenditures is important
because of regulatory limitations on costs.

It should be disclosed that the ALC staff began utilizing a time sheet to track hours worked
in support of the QFSR line item categories immediately after our audit period.

The reporting of Participants Served on the QFSR was also incorrect.

20 CFR 645.240(d) Participant reports, states:

        Each grant recipient must submit participant reports to the Department. Participant
        data must be aggregate data, and, for most data elements, must be cumulative. . . .

The ALC reported 800 participants served on the December 31, 2001 QFSR (567 as
70 percent and 233 as 30 percent). The ALC=s MIS included 800 participants that applied
for the WtW program through December 31, 2001. Initial testing revealed that some of
these did not meet the ETA definition of Aparticipant served.@ The ALC officials
subsequently confirmed that 211 of the reported 800 did not meet ETA=s definition. Of the
remaining 589 (800 less 211) “participants served,” 397 were designated as 70 percent, and
192 were designated as 30 percent.


DOL-OIG Audit Report No. 05-03-002-03-386                                           21
Abraham Lincoln Centre Welfare-to-Work Competitive Grant



Inaccurate programmatic reporting affects ALC’s ability to accurately track QFSR line item
category costs in accordance with a CAP and affects ETA=s ability to properly exercise its
stewardship responsibility over the WtW program.

Recommendation

We recommend that the Assistant Secretary for Employment and Training:

    a. restrict further cash drawdowns until ALC properly accounts for the WtW grant
       expenditures, and

    b. direct ALC to maintain and report accurate participant and financial data on the
       QFSR, and correct MIS inaccuracies.

ALC’s Response

A. Cash Management Procedures Are Not Adequate

DOL’s audit did not question the effectiveness of the program services provided.
Furthermore, the achievement of program services provided was obtained at a cost
consistent with the average placement cost of $11,976. Accomplishments have been
recognized by DOL by an extension of the grant through September 30, 2004.

Cash drawdown restrictions will severely hamper the delivery of services. ALC fully plans
to continue to properly account for WtW grant expenditures and we do not believe that
drawdowns should be suspended. This program cannot continue without reimbursement for
expenses.

B. QFSR Detail Line Items Are Not Supported

ALC conducted an internal review of 50 client files in response to the OIG’s audit. ALC
will document and implement procedures for QFSR reporting to ensure that participant
financial data is correct.

OIG’s Conclusion

A. Cash Management Procedures Are Not Adequate

ALC’s comments regarding the effectiveness of program services are not germane to the
issue of excess cash balances. ALC documented expenditures for the third and fourth


DOL-OIG Audit Report No. 05-03-002-03-386                                         22
Abraham Lincoln Centre Welfare-to-Work Competitive Grant



quarters of 2001 were $315,957 and $303,830 respectively (see page 19). However, ALC
has a cash balance of $316,587 as of December 31, 2001. We believe that maintaining a
cash balance to meet the cash requirements for a three-month period does not meet the intent
of 29 CFR 95.22 (a). Therefore, our recommendation remains unchanged.

B. QFSR Detail Line Items Are Not Supported

We consider ALC’s response sufficient to resolve this finding. However, the finding will
not be closed until documentation is provided to confirm that ALC’s accounting system and
MIS support financial and participant data as reported on the QFSR.




DOL-OIG Audit Report No. 05-03-002-03-386                                        23
Abraham Lincoln Centre Welfare-to-Work Competitive Grant



                              4. Incomplete Cost Allocation Plan

The ALC is composed of several operating components including Administration, Child
Development Services, Special Education and Mental Health, Residential Services, Social
Work, Economic Development, and Employment and Training. The ALC Employment and
Training component is commonly known as BTW. During our audit period, BTW was
funded by several agencies in addition to the WtW Competitive Grant.

The Grant Agreement, Part IV, Special Clause No. 2 requires all awardees receiving funds
from multiple funding sources to complete this section requiring the inclusion of an
approved CAP and/or an Indirect Cost Rate. ALC did not maintain an approved CAP or
obtain an indirect cost rate as recommended in our March 2000 report.

29 CFR 95.21(b)(6) states:

        Recipients’ financial management systems shall provide…written procedures for
        determining the reasonableness, allocability and allowability of costs in accordance
        with…Federal cost principles and the terms and conditions of the award.

Because ALC did not maintain an approved CAP, we identified 21 transactions in our
sample that were unallowable as a result of ALC:

    o direct charging the WtW program code for shared ALC agency costs,
    o direct charging the WtW program code for costs benefiting all BTW programs, or
    o allocating costs to multiple ALC funding sources but only to the WtW program code
      within BTW.

As of March 28, 2002, ALC officials provided the OIG with a “draft” CAP. However, the
CAP had not been submitted to or approved by DOL’s OCD.

Recommendation

We recommend that the Assistant Secretary for Employment and Training direct ALC to:

    a. develop a CAP and obtain the approval of DOL’s OASAM-OCD to ensure that ALC
       can properly report expenditures in accordance with the QFSR line item
       requirements, and

    b. adjust previously-applied shared costs charged to the WtW program code to all
       funding sources which also benefited from the expenditure.


DOL-OIG Audit Report No. 05-03-002-03-386                                         24
Abraham Lincoln Centre Welfare-to-Work Competitive Grant



ALC’s Response

In November 2002, ALC met with DOL’s Regional Cost Negotiator for review of ALC’s
CAP. ALC will incorporate all recommendations and submit the CAP to DOL’s OASAM-
OCD for approval.

ALC’s CAP defines the allocation methodology for shared costs. ALC will review all
previously applied shared costs charged to the WtW program and will reallocate costs to all
funding sources. Identified adjustments in this process may result in additional costs to the
WtW Competitive Grant.

OIG’s Conclusion

We consider ALC’s response sufficient to resolve both recommendations. However, the
recommendations will not be closed until ETA has confirmed the approved CAP is fully
implemented within the ALC accounting system and appropriate adjustments have occurred.




DOL-OIG Audit Report No. 05-03-002-03-386                                          25
Abraham Lincoln Centre Welfare-to-Work Competitive Grant



                       5. Internal Controls Need To Be Strengthened

                            Several internal control weaknesses were discovered during our
    Internal control        audit that may have contributed to and compounded other
 weaknesses in ALC’s        findings. A sound system of internal control includes complete
  accounting, payroll       documentation, policies and procedures, segregation of duties, as
 and reporting systems      well as supervisory review and approval.

29 CFR 95.21(b)(2)(3) and (7) state:

        Recipients’ financial management systems shall provide … Records that identify
        adequately the source and application of funds for federally-sponsored activities.
        These records shall contain information pertaining to Federal awards,…assets,
        outlays…; Effective control over and accountability for all funds, property, and
        other assets. Recipients shall adequately safeguard all such assets and assure that
        they are used solely for authorized purposes....; and Accounting records including
        cost accounting records that are supported by source documentation.

We found that ALC did not maintain source documentation to support accounting entries,
processed check requests directly through accounting staff, had no QFSR reporting system,
did not maintain time sheets for every employee, paid employees for non-work periods, and
did not properly account for grant drawdowns.

A. Missing source documentation

ALC could not provide source documentation for 31 percent of the financial sample that
represents $294,309 of questioned costs. The high error rate establishes an increased risk of
the ALC accounting system being unreliable.

B. Check requests processed directly through or not documented by accounting staff

Of the 71 transactions involving complete check requests, we determined 45 percent lacked
acceptable segregation of duties (see Exhibit A). In most cases, the check requests were
simply processed by the accounting clerk without any documented oversight/approval of
BTW officials or other ALC Finance staff. We also found three check requests also lacked
the initials of the accounting clerk who processed the request and three other check requests
were partially obliterated. This high error rate establishes an increased risk of the ALC
accounting system being unreliable.




DOL-OIG Audit Report No. 05-03-002-03-386                                           26
Abraham Lincoln Centre Welfare-to-Work Competitive Grant



C. No QFSR reporting system

ALC had not established a formal system for the preparation and subsequent documentation
of the QFSR submitted to ETA for this grant. Instead, the ALC Finance official responsible
for obtaining and submitting the QFSR data to ETA informed us that programmatic data is
obtained from BTW and current quarter expenditures are added to the previous QFSR’s line
item totals for preparation of the current QFSR.

D. Salaries paid do not reconcile with employees time worked

For the pay period ending April 15, 2001, we found three employees’ payroll time sheets did
not reconcile to paid salary. One employee’s time sheet documented one workday as leave
without pay. Another employee’s time sheet documented two workdays as suspension. The
third employee’s time sheet documented two workdays as leave without pay. However, all
three employees received full pay. For the pay period ending July 31, 2001, we found
another employee’s time sheet did not reconcile to the paid salary. The employee’s time
sheet documented three workdays with no activity but the employee received full pay.
We questioned the associated payroll costs for these staff in Finding No. 2.

E. Grant drawdowns cannot be traced to ALC’s accounting records

We were unable to trace 78 percent of tested grant drawdowns to the appropriate cash
account in the ALC books of record for the grant. Further, we were unable to trace
14 percent of drawdowns to the revenue account established for the WtW Competitive
Grant. As a result, the grant’s cash loses its identity within the BTW component of ALC
and becomes co-mingled with BTW’s other funding source revenue.

Recommendation

We recommend that the Assistant Secretary for Employment and Training require ALC to
strengthen financial management internal controls by:

    a. maintaining source documentation for all accounting transactions,

    b. obtaining appropriate programmatic and financial approval prior to processing check
       requests,

    c. formalizing QFSR reporting policies to ensure that adequate financial and
       programmatic information is maintained and QFSRs are reviewed prior to
       submission to ETA,


DOL-OIG Audit Report No. 05-03-002-03-386                                          27
Abraham Lincoln Centre Welfare-to-Work Competitive Grant



    d. ensuring salaries charged to the grant are supported by employees’ time worked, and

    e. posting grant drawdowns in the appropriate accounting system program accounts to
       promptly and accurately maintain an audit trail of grant assets.

ALC’s Response

A. Missing source documentation

ALC’s Accounting Policies and Procedures manual requires that source documentation shall
be maintained for all transactions. ALC shall ensure compliance with this policy.

B. Check requests processed directly through or not documented by accounting staff

ALC has an effective system of internal controls in place. Our policy includes appropriate
programmatic and financial approval prior to the processing of checks and the
organizational hierarchy has built-in system checks.

C. No QFSR reporting system

ALC will develop a formal policy for QFSR reporting by January 30, 2003.

D. Salaries paid do not reconcile with employees time worked

ALC will implement a revised time distribution system for staff time by February 2003.
Time sheets will track staff hours worked in support of the QFSR line item categories.
Direct labor personnel will be required to complete a time sheet by activity, and ALC will
seek consultation on the development of an indirect cost rate. The indirect cost rate will be
utilized to allocate salaries for administrative staff.

E. Grant drawdowns cannot be traced to ALC’s accounting records

The ALC accounting system allows ALC to maintain an audit trail of grant funds and
related expenses to the appropriate program code. The general ledger is used as a
mechanism to track all grant drawdowns. Program codes are established for all funding
sources that are used to record all funds and disbursements.




DOL-OIG Audit Report No. 05-03-002-03-386                                           28
Abraham Lincoln Centre Welfare-to-Work Competitive Grant



OIG’s Conclusion

A. Missing source documentation

While ALC responded that they have a policy that requires source documentation be
maintained, our audit testing shows a lack of compliance with this policy. ALC was unable
to provide source documentation for 31 percent of the financial sample that represents
$294,312 of questioned costs. This high error rate establishes an increased risk of the ALC
accounting system being unreliable.

Recommendation A. remains unresolved.

B. Check requests processed directly through or not documented by accounting staff

While ALC responded that they have a policy that includes appropriate programmatic and
financial approvals for check processing, our audit testing shows a lack of compliance with
this policy. We found that 45 percent of check requests lacked acceptable segregation of
duties. This high error rate establishes an increased risk of the ALC accounting system
being unreliable.

Recommendation B. remains unresolved.

C. No QFSR reporting system

Recommendation C. is resolved, but not closed, until ETA confirms the corrective action.

D. Salaries paid do not reconcile with employees time worked

Recommendation D. is resolved, but not closed, until ETA confirms the corrective action.

E. Grant drawdowns cannot be traced to ALC’s accounting records

While ALC responded that they maintain an audit trail of grant funds and related expenses
to the appropriate program code through the general ledger, we were unable to trace 78
percent of tested grant drawdowns to the appropriate cash account in the ALC books of
record for the grant. We were also unable to trace 14 percent of these drawdowns to the
revenue account established for the WtW Competitive Grant.

Recommendation E. remains unresolved.



DOL-OIG Audit Report No. 05-03-002-03-386                                         29
Abraham Lincoln Centre Welfare-to-Work Competitive Grant



                   6. Inadequate Participant Eligibility and Documentation

We judgmentally selected a sample of 50 participants from the adjusted universe of
589 participants served for participant eligibility testing. The sample was divided into two
groups based upon the eligibility determination date. We determined that 5 of the sampled
participants enrolled before January 1, 2000, and the remaining 45 enrolled from
January 1, 2000 through December 31, 2001. This was necessary because WtW eligibility
requirements changed as of January 1, 2000. Our eligibility testing revealed eight ineligible
and six misclassified participants were served in BTW’s WtW program.

A. Ineligible Participants

                               Of the 50 participants in our sample, 8 were considered
  8 ineligible participants    ineligible for WtW based on insufficient, incomplete, or
   resulted in questioned      undocumented public assistance information and/or
       costs of $428           undocumented participant income as of the eligibility
                               determination date.

20 CFR 645.212(a) and (b) (dated November 18, 1997) state:

        An individual is eligible to be served under the 70 percent provision if…The
        individual is receiving TANF assistance; and…Has received assistance under the
        State TANF program, and/or its predecessor program, for at least 30 months…A
        noncustodial parent of a minor is eligible to participate under the 70 percent
        provision if the custodial parent meets the eligibility requirements…

20 CFR Part 645.212(c) (dated January 11, 2001) states:

        An individual may be served under this provision if…(S)he is a noncustodial parent
        of a minor child if…At least one of the following applies: (i) The minor child, or the
        custodial parent of the minor child, meets the long-term recipient of TANF
        requirements…(ii) The minor child is receiving or is eligible for TANF benefits and
        services; (iii) The minor child received TANF benefits and services during the
        preceding year; or (iv) The minor child is receiving or is eligible for assistance
        under the Food Stamp program, the Supplemental Security Income program,
        Medicaid, or the Children’s Health Insurance Program…




DOL-OIG Audit Report No. 05-03-002-03-386                                           30
Abraham Lincoln Centre Welfare-to-Work Competitive Grant



20 CFR 645.213 (a) and (c) (dated January 11, 2001) state:

        Any individual may be served under this provision if (s)he…Is currently receiving
        TANF assistance…Is a custodial parent with income below 100 percent of the
        poverty line…

Of the eight considered ineligible, seven were enrolled in WtW as noncustodial parents.
However, the participants’ files did not have the proper documentation verifying the
custodial parent’s or his/her child(ren)’s public assistance eligibility. The noncustodial
parents also did not meet the requirements for other WtW eligibility categories.

The remaining ineligible was enrolled in WtW as a custodial parent with income below the
poverty line. However, the participant’s file did not provide proof of income or TANF
eligibility.

Since ALC did not have necessary documentation in all participants’ files, we consider the
eight participants to be ineligible. ALC’s MIS indicates $428 of direct transportation
services was provided on behalf of the participants considered ineligible. We question the
$428 of direct transportation services in Finding No. 2.

B. Misclassified Participants

                               Our eligibility testing also disclosed six participants who were
      6 misclassified          considered improperly classified in the WTW program. One
        participants           participant was classified as hard-to-employ noncustodial
                               (70%) enrolled before January 1, 2000; and five participants
were classified as primary   eligibles (70%) enrolled after January 1, 2000. The misclassified
hard-to-employ participant file did not include evidence that the custodial parent had
received TANF and/or Aid to Families with Dependent Children (AFDC) for 30 months or
more at the time of WtW enrollment. The misclassified primary eligibles included four
custodial parent files that did not include evidence that they had received TANF and/or
AFDC for 30 months or more at the time of WTW enrollment. The remaining primary
eligible was listed as a primary noncustodial but the file included evidence of custodial
parent with income below the poverty line. We determined that all six participants met the
respective 30 percent criteria and should have been classified accordingly.

The misclassifications by ALC overstated the 70 percent category and understated the
30 percent category. The improper classification of participants also can affect the QFSR
reporting process when reporting the QFSR individual line item expenditures. We believe
the misclassifications occurred because the ALC staff did not obtain documentation of


DOL-OIG Audit Report No. 05-03-002-03-386                                           31
Abraham Lincoln Centre Welfare-to-Work Competitive Grant



public assistance prior to servicing clients. ALC’s MIS indicates $437 of direct
transportation services were provided on behalf of the participants considered misclassified.
We consider these costs as misclassified because it was not possible to trace the
transportation costs by participant through the ALC accounting system.

Recommendation:

We recommend that the Assistant Secretary for Employment and Training direct the ALC
to:
      a. transfer $437 from the 70 percent to the 30 percent category expenditure
         accounts for the six misclassified participants,

        b. correct their MIS and QFSR to reflect the eight ineligible participants and the six
           misclassified participants, and

        c. implement procedures to ensure evidence of public assistance and/or insufficient
           income prior to servicing clients.

ALC’s Response

ALC concurs that seven of eight participants were ineligible. ALC obtained evidence from
the Non-Custodial parent unit and IDHS system to render one participant fully eligible at
time of enrollment.

ALC concurs that the six participants were misclassified. All participants have been
reclassified to the 30 percent eligibility category and the corresponding costs will be
accordingly adjusted.

ALC implemented recommendations of several program enhancements to ensure all clients
are eligible and appropriately classified before they are serviced. ALC requests a completed
2151 form from IDHS verifying length of time on TANF prior to enrollment and non-
custodial parent applicants are sent to the Non-custodial Parent unit for verification prior to
enrollment. Simultaneously, ALC staff verifies evidence of public assistance for the
dependent child through the IDHS system. This evidence is placed in the client’s folder.

OIG’s Conclusion

We consider this finding resolved, but not closed, until ETA confirms ALC’s corrective
actions and one participant’s eligibility documentation from IDHS. ALC did not provide
the IDHS eligibility evidence for the participant in their response.


DOL-OIG Audit Report No. 05-03-002-03-386                                           32
Abraham Lincoln Centre Welfare-to-Work Competitive Grant



                                                                                                                 Exhibit A
                                   FINANCIAL SAMPLE RESULTS
                              114 TRANSACTIONS WITH EXCEPTIONS
                           OCTOBER 1, 1999 THROUGH DECEMBER 31, 2001

                    Program                                                                                    Originating
Sample             Code & G/L                                      Amount                                   Program Code / or
  No.      Date     Account             Transaction Description   Questioned        Audit Determination          Vendor


                                          Section A -- No Supporting Documentation
                              Fringe Benefit - March 2001
     43     3/6/01 705 - 5021 Insurance                            4,173 no supporting documentation       Humana
Fringe Benefits Subtotal                                          $    4,173
     57    4/18/01 705 - 5309 88001646/April 01                        1,090 no supporting documentation   CIT Group
     66    7/30/00 705 - 5556 BTW Participant Uniforms                 2,202 no supporting documentation   Advance
                                                                                                           Chicago Transit
     67    8/29/00 705 - 5556 BTW Participant Farecards                5,880 no supporting documentation   Authority
 partial                      Petty Cash - BTW Office
     95    9/20/01 705 - 5757 Operations for $500                        18 no supporting documentation    Employee No. 1
Direct Program / Participant Subtotal                             $    9,190
     13    3/17/00 705 - 5052 Staffing Services                        4,779 no supporting documentation   CCB Services
     18    2/29/00 705 - 5052 Reallocation from BTW                    5,485 no supporting documentation   Unknown
     22    3/24/00 705 - 5061 8.4 GB Ultra ATA/66                      1,037 no supporting documentation   Insight
                                                                                                           Nextel
     25    3/31/00 705 - 5091 Nextel Account 5495786-5                 4,828 no supporting documentation   Communications
     31    3/23/00 705 - 5303 Travel Expense Reimbursement              318 no supporting documentation    Employee No. 2
     45    7/30/00 705 - 5052 Staffing Services for BTW                3,653 no supporting documentation   CCB Services
     46 11/17/00 705 - 5052 Staffing Services                          3,579 no supporting documentation   CCB Services
                            Invoice No. 672                                                                Northeastern Illinois
     65 7/30/00 705 - 5551 Camp Shaw-waw-nas-see                       4,640 no supporting documentation   University
                            092-206-077 /
     89 7/15/01 705 - 5301 June 2001Telephone                          1,743 no supporting documentation   Ameritech
    112    11/5/01 705 - 5090 773-451-1300-336 Phone Exp.              1,921 no supporting documentation   Ameritech
Administration Subtotal                                           $   31,983

TOTAL - NO SUPPORTING DOCUMENTATION                               $ 45,346


                                          Section B -- Unsupported Journal Entries
                            Reallocation of BTW
      6 12/31/99 705 - 5021 December 99 Federal Expense $         1,967 unsupported journal entry          703
                            Reallocation of BTW
      8 12/31/99 705 - 5022 December 99 Federal Expense           2,901 unsupported journal entry          703
Fringe Benefits Subtotal                                          $    4,868
      1 11/30/99 705 - 5011 Payroll Reallocation of Expense           37,793 unsupported journal entry     703
      2 11/30/99 705 - 5011 Payroll Reallocation of BTW               36,594 unsupported journal entry     703
Payroll Subtotal                                                  $   74,387



DOL-OIG Audit Report No. 05-03-002-03-386                                                                        33
Abraham Lincoln Centre Welfare-to-Work Competitive Grant




                     Program                                                                                             Originating
Sample              Code & G/L                                       Amount                                           Program Code / or
  No.      Date      Account            Transaction Description     Questioned           Audit Determination               Vendor

                              To charge correct program -
 partial                      reallocation of $8,268 --
           7/31/00 705 - 5351                                             1,878 unsupported journal entry            704
     61                       Computer Equipment and
                              Software
                              Corrections to Allocations for
    103    2/28/01 705 - 5055 BTW                                         5,586 unsupported journal entry            703
Direct Program / Participant Subtotal                               $     7,464
                               Services Rendered to                             unsupported journal entry
     78      8/3/01 705 - 5052 BTW Program                                1,875 indicates voided check               Consultant No. 1
     96    6/30/00 705 - 5052 Reclassify exp. recorded in dhs            11,650 unsupported journal entry            703
    102    7/31/00 705 - 5052 To charge correct program                   4,171 unsupported journal entry            703
Consulting / Contracting Subtotal                                   $    17,696
      9    6/30/00 705 - 5042 Reclassify exp. recorded in dhs             6,797 unsupported journal entry            703
     21    6/30/00 705 - 5061 Reclassify exp. recorded in dhs             8,323 unsupported journal entry            703
     23 11/30/99 705 - 5090 Reallocation of expense                       7,077 unsupported journal entry            703
     24    6/30/00 705 - 5090 Reclassify exp. recorded in dhs            18,860 unsupported journal entry            703
     26    6/30/00 705 - 5091 Reclassify exp. recorded in dhs            11,493 unsupported journal entry            703
     27    6/30/00 705 - 5201 Reclassify exp. recorded in dhs            14,400 unsupported journal entry            703
     29    6/30/00 705 - 5251 Reclassify exp. recorded in dhs             7,153 unsupported journal entry            703
     30 11/30/99 705 - 5301 Reallocation of BTW Fed Exp.                  1,107 unsupported journal entry            703
     33 11/30/99 705 - 5351 Reallocation of expense                       9,109 unsupported journal entry            703
     34 11/30/99 705 - 5351 Reallocation of BTW Fed Exp.                  3,220 unsupported journal entry            703
     35    6/30/00 705 - 5351 Reclassify exp. recorded in dhs            44,057 unsupported journal entry            703
     98 11/30/99 705 - 5061 Reallocation of expense                       9,920 unsupported journal entry            703
                            To recognize worker's comp.
    101 6/30/01 705 - 5033 expense 10/00-06/01                            3,035 unsupported journal entry            100
Administration Subtotal                                             $ 144,551

TOTAL - UNSUPPORTED JOURNAL ENTRIES                                 $ 248,966


                                    Section C -- Inadequate Documentation / Excessive Costs
 partial                                                                  Employee No. 3 not included on
      7      5/3/00 705 - 5021 Fringe Benefit - May Insurance       422 invoice                                      Humana
Fringe Benefits Subtotal                                            $        422
                                                                                 No contract or times sheets to
     20    3/31/00 705 - 5056 OJT Invoice No. 40555                        1,924 support the rates or hours billed   CCB Services
                                                                                 no lease agreement and included
                                                                                                      1
     59 11/15/00 705 - 5351 Computer Equipment Lease                $      3,288 $299 of late charges                Old Kent Leasing
                            To charge correct program -
 partial                    reallocation of $8,268 --
         7/31/00 705 - 5351                                                2,989 no lease agreement                  Old Kent Leasing
     61                     Computer Equipment and
                            Software



1 Item represents one of 32 transactions that lacked adequate segregation of duties on check request

DOL-OIG Audit Report No. 05-03-002-03-386                                                                                  34
Abraham Lincoln Centre Welfare-to-Work Competitive Grant




                       Program                                                                                                   Originating
Sample                Code & G/L                                       Amount                                                 Program Code / or
  No.         Date     Account          Transaction Description       Questioned           Audit Determination                     Vendor

                                 Computer Equipment and
    partial                      Software Lease - Total Charge                                                      Marlin Leasing
        92    7/25/01 705 - 5351 of $3,798                                    127 unreasonable late charge          Corporation
                                                                                  CTA receipt/invoice did not match
                                                                                  tested transaction – provided     Chicago Transit
      100  4/19/00 705 - 5556 Farecards for BTW Participants                5,620 receipt was dated March 31, 2000 Authority
                              BTW Farecards for DOL and
                              Chicago Works participants –                                                                   Chicago Transit
      115 12/19/01 705 - 5304 total cost of $1,750                            625 no invoice                                 Authority
                              Computer Equipment / Software                                                                  Marlin Leasing
      117 11/15/01 705 - 5351 Lease – 0013914 – 001/003                     2,636 no invoice1                                Corporation
Direct Program / Participant Subtotal                                 $    17,209
                                                                                    Contract not provided to support
                                                                                    rates billed – unable to reconcile
                                                                                                                         1
        10    3/31/00 705 - 5042 March 2000 Services                          619 billing to amount charged to WtW           Consultant No. 2
                                                                                  Contract not provided to support
                                                                                  nature and extent of the services
                                                                                  rendered – unable to reconcile
        17   2/7/00 705 - 5052 Payment for Services Rendered               20,000 documentation provided                     Partec
        47 12/30/00 705 - 5052 BTW Consultant                               1,800 no invoice                                 Consultant No. 3
                                                                                  no consultant contract and no
                                                                                  approved CAP to support
                                 BTW Training and Development                     50 percent allocation to WtW and
                                                                                                   1
        75    9/20/01 705 - 5052 Consultant                                   937 Chicago Works                              Consultant No. 1
                                                                                  no invoice - no approved CAP -
                                 BTW Retainer for                                 benefits multiple BTW funding
        77     7/6/01 705 - 5052 Communication and Marketing                2,000 sources - direct charged to WtW            Consultant No. 4
                                                                                  Contract not provided to support
        97    5/31/00 705 - 5052 BTW Consultant - Jan. & Feb.               5,000 billing amount and terms                   Partec
                                                                                               1
   110 12/13/01 705 - 5052 Payment for Services Rendered                    1,800 no invoice                          Consultant No. 3
Consulting / Contracting Subtotal                                     $    32,156
                                                                                  Contract not provided to support
        11    3/17/00 705 - 5052 Staffing Services                          1,480 rates billed                        CCB Services
                                                                                  Contract not provided to support
        12    3/17/00 705 - 5052 Payment for Staffing                       2,338 rates billed                        CCB Services
                                                                                  Contract not provided to support
        14    4/30/00 705 - 5052 Invoice No. 40469                          4,779 rates billed                        CCB Services
                                 Business Portfolios for                          Unable to determine nature of
        28    4/25/00 705 - 5251 BTW Participants                           2,020 purchased items or user of items Thank You Products
                                                                                  Itemized invoice not provided –     Marriott’s
        36    3/17/00 705 - 5453 BTW Staff Training                         9,551 appears to be excessive charge      Lincolnshire Resort
                                                                                  All hotel costs (less meeting room
                                                                                  rental and supplies) after
                                                                                  February 17, 2000 (last date of
                                                                                  ETA WtW conference) as well as Doubletree Hotel –
        37    4/28/00 705 - 5453 Seminar & Staff Development               20,384 excessive hotel room expenses       Minneapolis Airport
                                                                                  (Presidential Suite, room upgrades, at the Mall
                                                                                  phone calls, and multiple banquet
                                                                                  expenses including 30 and 27
                                                                                  rooms for February 18-19, 2000)

1
    Item represents one of 32 transactions that lacked adequate segregation of duties on check request


DOL-OIG Audit Report No. 05-03-002-03-386                                                                                         35
Abraham Lincoln Centre Welfare-to-Work Competitive Grant




                     Program                                                                                             Originating
Sample              Code & G/L                                      Amount                                            Program Code / or
  No.      Date      Account         Transaction Description       Questioned           Audit Determination                Vendor

                                                                                unreasonable costs (including one
                                                                                phone's monthly bill of $1,507 and
                                                                                9 inactive phones, other phones
                                                                                assigned to previous employees of
                                                                                BTW, excessive calls and charges)
                                 Cell Phone Expense 03130093
     54    4/25/01 705 - 5091                                             2,145 - no approved CAP - benefits       Cingular Wireless
                                 January 2001                                   multiple funding sources -
                                                                                allocated to multiple ALC funding
                                                                                sources but only to WtW within
                                                                                BTW – unable to reconcile to
                                                                                                       1
                                                                                source documentation
                                                                                no invoice or negotiated
                                                                                instrument from the vendor for
                                                                                $1,800, no contractual instrument
                                 Furniture Lease Buy Out on
     60    5/14/01 705 - 5351                                             1,800 to support 1,800, direct charged to First Priority Leasing
                                 Contract                                       WtW but appears to benefit
                                                                                multiple ALC and/or BTW
                                                                                                1
                                                                                funding sources
                                                                                no invoice and costs allocated to
                                                                                multiple ALC funding sources but
     68    5/31/01 705 - 5751 CPA Membership Fees                           203 to only WtW within BTW              Illinois CPA Society
                                                                                unreasonable cost at $40 per guest
                                                                                - direct charged to WtW - appears
                                                                                to benefit other BTW funding
                                                                                         1
     81    9/21/01 705 - 5081 BTW Luncheon                                  800 sources                            Vendor No. 1
                              BTW Telephone Line
     83    9/20/01 705 - 5090 Installation                                  776 no invoice                         Connectivity Systems
                                                                                unreasonable costs (including one
                                                                                phone's monthly bill of $1,345 and
                                                                                11 inactive phones, other phones
                                                                                assigned to previous employees of
                                                                                BTW, excessive calls and charges)
                                 Cellular Phones -- August 2001
     84    8/15/01 705 - 5091                                             1,989 - no approved CAP - benefits       Cingular Wireless
                                 Total Charge of $2,228                         multiple funding sources -
                                                                                allocated to multiple ALC funding
                                                                                sources but only to WtW within
                                                                                BTW - unable to reconcile to
                                                                                                       1
                                                                                source documentation
                                                                                unreasonable costs (including one
                                                                                phone's monthly bill of $1,243 and
                                                                                11 inactive phones, other phones
                                                                                assigned to previous employees of
                                 Cellular Phones -- July 2001                   BTW, excessive calls and charges)
     85     7/9/01 705 - 5091                                             1,760 - no approved CAP - benefits       Cingular Wireless
                                 Total Charge of $1,984
                                                                                multiple funding sources -
                                                                                allocated to multiple ALC funding
                                                                                sources but only to WtW within
                                                                                      1
                                                                                BTW




1 Item represents one of 32 transactions that lacked adequate segregation of duties on check request

DOL-OIG Audit Report No. 05-03-002-03-386                                                                                 36
Abraham Lincoln Centre Welfare-to-Work Competitive Grant




                     Program                                                                                              Originating
Sample              Code & G/L                                       Amount                                            Program Code / or
  No.      Date      Account         Transaction Description        Questioned           Audit Determination                Vendor


                                                                                no verification of payment - cost
                                                                                appears to benefit multiple BTW
     88    8/10/01 705 - 5251 BTW Business Cards                            250 funding sources                       Hall & Son
                                                                                Five ALC employees arrived in
                                                                                Minneapolis after ETA WtW
                                                                                conference ended on
                                                                                February 17, 2000. Four
                                                                                additional employees/consultants      C.P. Louie Travel
     99    2/16/00 705 - 5305 Plane Tickets                               2,850
                                                                                did not have documented stays at      Services, Inc.
                                                                                the Minneapolis hotel. We were
                                                                                unable to confirm the nature of the
                                                                                travel to Washington DC for
                                                                                another ALC employee.
                                                                                unreasonable cost at $35 per guest
                                                                                - direct charged to WtW - appears
                                                                                to benefit other BTW funding
                                                                                         1
    111    10/9/01 705 - 5081 BTW Luncheon                                1,750 sources                               Vendor No. 1
                                                                                Unreasonable costs (including one
                                                                                phone's monthly bill of $814 and
                                                                                11 inactive phones, other phones
                                                                                assigned to previous employees of
    113 11/28/01 705 - 5091 Cell Phone Expense of $1,301                  1,148 BTW, excessive calls and charges) Cingular Wireless
                                                                                - no approved CAP - benefits
                                                                                multiple funding sources -allocated
                                                                                to multiple ALC funding sources
                                                                                                               1
                                                                                  but only to WtW within BTW
 partial                   Copier / Printer Lease for $3,833                                                       Canon Financial
   116 10/11/01 705 - 5351 001-0025285-006, 007,…                            31 late charge                        Services
                                                                                unallowable entertainment cost
                                                                                and not allocated to all ALC
                                                                                funding sources but direct charged
                                                                                          1
    118 12/11/01 705 - 5551 Entertainment – Christmas party                 750 to WtW                            Vendor No. 2
                                                                                Unreasonable costs for 200 guests
                                                                                - if the cost was considered as
                                  ALC Christmas party                           benefiting employee morale, the Honeysuckles of
    119 11/14/01 705 - 5757                                               5,362 cost would benefit all ALC
                                  December 20, 2001                                                               Chicago
                                                                                funding sources, but the cost was
                                                                                                       1
                                                                                direct charged to WtW
                                                                                unallowable entertainment cost
                                                                                and not allocated to all ALC
                            Reimbursement for Party                             funding sources but direct charged
    120 11/14/01 705 - 5757 Decorations, DJ – ALC Xmas                      600 to WtW                             Employee No. 4
Administration Subtotal                                             $    62,766
TOTAL - INADEQUATE DOCUMENTATION /
EXCESSIVE COSTS                                                     $   112,553




1 Item represents one of 32 transactions that lacked adequate segregation of duties on check request

DOL-OIG Audit Report No. 05-03-002-03-386                                                                                  37
Abraham Lincoln Centre Welfare-to-Work Competitive Grant




                     Program                                                                                        Originating
Sample              Code & G/L                                       Amount                                      Program Code / or
  No.      Date      Account            Transaction Description     Questioned           Audit Determination          Vendor


                                          Section D -- Inadequate Documentation for Pay Periods
      3    4/29/00 705 - 5011 Payroll April 30, 2000                $    26,049 no personnel activity reports   not applicable
     40    4/30/01 705 - 5011 Payroll April 15, 2001                     29,522 no personnel activity reports   not applicable
     70    7/30/01 705 - 5011 Payroll July 31, 2001                      30,303 no personnel activity reports   not applicable
     71    9/20/01 705 - 5011 Payroll September 15, 2001                 44,937 no personnel activity reports   not applicable
     72    9/30/01 705 - 5011 Payroll September 30, 2001                 52,570 no personnel activity reports   not applicable
    106 11/29/01 705 - 5011 Payroll November 30, 2001                    70,781 no personnel activity reports   not applicable
   107 10/30/01 705 - 5011 Payroll October 31, 2001                      60,555 no personnel activity reports   not applicable
TOTAL - INADEQUATE DOCUMENTATION FOR PAY
PERIODS                                                             $ 314,717


                             Section E -- Inadequate Documentation / Payroll Allocation
                                                                     no personnel activity reports, no
                                                                     allocation basis, no audit trail to
    4 6/30/00 706 - 5011 Allocation to 30%                 46,369 cost pool, etc.                               not applicable
TOTAL - INADEQUATE DOCUMENTATION FOR
PAYROLL ALLOCATION                                      $ 46,369



                                               Section F -- Other Program Costs
                                                                          other program expense --
 Partial                       September 2001 Insurance Cost              employees assigned to
     73      9/1/01 705 - 5021 of $2,335                             473 Chicago Works                          Humana
Fringe Benefits Subtotal                                            $       473
     41    7/30/00 705 - 5011 Charge Correct Program                     13,426 other program expense           704
     42    9/28/00 705 - 5014 Charge Correct Program                      1,863 other program expense           704
Payroll Subtotal                                                    $    15,289
                                                                                                                703 – Chicago
     38    5/31/00 705 - 5556 BTW Farecards                               2,940 other program expense           Transit Authority
                              Corrections for Allocations
     49    2/28/01 705 - 5053 for BTW                                       740 other program expense           703
                                                                                                       1
     50    8/30/00 705 - 5054 To charge correct program                   1,176 other program expense           709 - IDHS Earnfare
                              Fee for BTW Client Training
     52    5/31/01 705 - 5056 and Placements                              3,245 other program expense           703
 partial                      Petty Cash - BTW Operations                       other program expense for
     95    9/20/01 705 - 5757 for $500                                      251 Chicago Works clients           Employee No. 1
Direct Program / Participant Subtotal                               $     8,352
                                                                                other program expense
     15    1/24/00 705 - 5052 BTW116 Consultant                           4,385 for IDHS program                703 - MidAmerica
                                                                                other program expense
     16    1/24/00 705 - 5052 BTW117 Consultant                           4,385 for IDHS program                703 - MidAmerica




1 Item represents one of 32 transactions that lacked adequate segregation of duties on check request

DOL-OIG Audit Report No. 05-03-002-03-386                                                                             38
Abraham Lincoln Centre Welfare-to-Work Competitive Grant




                     Program                                                                                            Originating
Sample              Code & G/L                                       Amount                                          Program Code / or
  No.      Date      Account            Transaction Description     Questioned           Audit Determination              Vendor


                              Fee for Consulting Services -                     other program expense -- benefits
     76    7/20/01 705 - 5052 BTW Recruitment                               850 Chicago Works program             Consultant No. 5
                              Consultant for                                    other program expense –
    109    12/7/01 705 - 5052 IDHS TANF Training                          2,175 IDHS program                        Consultant No. 1
Consulting / Contracting Subtotal                                   $    11,795
     51    5/31/01 705 - 5055 BTW Training Materials                      2,244 other program expense               708
                                                                                Computer hardware for WIA
    104      3/9/01 705 - 5061 WIA Project for BTW-Supplies               6,553 project, no invoice was provided    707 - CDW
Administration Subtotal                                             $     8,797

TOTAL - OTHER PROGRAM COSTS                                         $    44,706



                                             Section G -- Shared Costs Not Properly Allocated
 partial                                                                        no approved CAP – benefits
      7      5/3/00 705 - 5021 Fringe Benefit - May Insurance       $       609 multiple BTW funding sources        Humana
                                                                                no approved CAP – benefits
 partial                       September 2001 Insurance Cost                    multiple BTW funding sources –
     73      9/1/01 705 - 5021 of $2,335                                    782 direct charged to WtW               Humana
Fringe Benefits Subtotal                                            $      1,391

                                                                                no approved CAP – benefits
                                                                                multiple funding sources - direct   Marlin Leasing
     58    6/27/01 705 - 5351 Software                                    3,671 charged to WtW                      Corporation
                              To charge correct program -
                              reallocation of $8,268 --                         no approved CAP – benefits
 partial                      Computer Equipment and                            multiple BTW funding sources –      Marlin Leasing
     61    7/31/00 705 - 5351 Software                                    3,401 direct charged to WtW               Corporation

                                                                                no approved CAP – benefits
                                                                                multiple BTW funding sources –      KidSmart Software
     62    11/7/00 705 - 5352 Renewal of Smartnet Services                8,190 direct charged to WtW               Company
                                                                                   no approved CAP – benefits
                              Participant Bus Lease                                multiple BTW funding sources –
                                                                                                       1
     90    8/30/01 705 - 5309 88001646-001 August 2001                    1,090 direct charged to WtW               CIT Group
                                                                                   no approved CAP – benefits
                              Computer System Lease 646174                         multiple BTW funding sources –   Heller Financial
                                                                                                       1
     91    9/30/01 705 - 5351 September 2001                              2,989 direct charged to WtW               Leasing Company

                              Computer Equipment and                            no approved CAP – benefits
 partial                      Software Lease - Total Charge                     multiple BTW funding sources –      Marlin Leasing
     92    7/25/01 705 - 5351 of $3,798 – 001314-001-003                  3,671 direct charged to WtW               Corporation
                                                                                no approved CAP – benefits
                                                                                multiple BTW funding sources –
                                                                                                     1
     94    7/13/01 705 - 5352 City Sticker for Participant Bus              110 direct charged to WtW               City of Chicago
Direct Program / Participant Subtotal                               $    23,122


1 Item represents one of 32 transactions that lacked adequate segregation of duties on check request

DOL-OIG Audit Report No. 05-03-002-03-386                                                                                 39
Abraham Lincoln Centre Welfare-to-Work Competitive Grant




                     Program                                                                                          Originating
Sample              Code & G/L                                       Amount                                        Program Code / or
  No.      Date      Account         Transaction Description        Questioned           Audit Determination            Vendor

                                                                                no approved CAP – benefits
                                                                                multiple funding sources -
                                                                                allocated to multiple ALC funding
     44 12/30/00 705 - 5042 Consultant Pay-December 2000                  1,842                                   Consultant No. 2
                                                                                sources but only to WtW within
                                                                                BTW - unable to reconcile to
                                                                                source documentation
                                                                                no approved CAP – benefits
                                                                                multiple BTW funding sources –
     48 12/30/00 705 - 5052 BTW Consultant                                2,000 direct charged to WtW             Consultant No. 4
                                                                                no approved CAP – benefits
                                                                                multiple funding sources -
                                                                                allocated to multiple ALC funding
     74      7/2/01 705 - 5042 Computer Analyst June 2001                   696 sources but only to WtW within Consultant No. 2
                                                                                BTW - unable to reconcile to
                                                                                                      1
                                                                                source documentation

Consulting / Contracting Subtotal                                   $     4,538
                                                                                no approved CAP – benefits
                                                                                multiple BTW funding sources –
     32    2/16/00 705 - 5306 Repairs for BTW Bus                         1,741 direct charged to WtW             Blitz Body Company
                                                                                no approved CAP – benefits
                              Beverages 286359-5                                multiple funding sources - direct
                                                                                                 1
     53    2/28/01 705 - 5081 February 2001                                 230 charged to WtW                    Hinckley & Schmitt
                                                                                no approved CAP – benefits
                                                                                multiple funding sources -
                                                                                allocated to multiple ALC funding
                                                                                sources but only to WtW within
                              Cell Phone Expense Account:                       BTW - unable to reconcile to      Nextel
                                                                                                      1
     55    8/30/00 705 - 5091 0005495786-5                                4,299 source documentation              Communications
                                                                                no approved CAP – benefits
                                                                                multiple ALC funding sources -
     64    8/29/00 705 - 5453 CPE Internet Seminar Training         $       195 direct charged to WtW             Pro 2 Net

                              Truck Rental and Window                           no approved CAP – benefits
                              Replacement -- BTW Harvey                         multiple BTW funding sources -
                                                                                                     1
     69    6/30/01 705 - 5753 Relocation                                    667 direct charged to WtW             Employee No. 5
                                                                                no approved CAP – benefits
                              BTW Contractual Fees for                          multiple BTW funding sources -
                                                                                                       1
     80    9/14/01 705 - 5067 Temporary Receptionist                        579 direct charged to WtW             Spherion Corporation
                                                                                no approved CAP – benefits
                               Phone Expense BTW June 2001                      multiple BTW funding sources -
                                                                                                       1
     82      7/6/01 705 - 5090 1-708-331-4460-035-8                       1,484 direct charged to WtW             Ameritech
                                                                                no approved CAP – benefits
                              BTW Facilities Rent                               multiple BTW funding sources -    Northeastern Illinois
                                                                                                       1
     86    7/25/01 705 - 5201 August 2001                                 2,500 direct charged to WtW             University
                                                                                no approved CAP – benefits
                               BTW Facilities Rent                              multiple BTW funding sources -    Northeastern Illinois
                                                                                                       1
     87      9/1/01 705 - 5201 September 2001                             2,500 direct charged to WtW             University



1 Item represents one of 32 transactions that lacked adequate segregation of duties on check request

DOL-OIG Audit Report No. 05-03-002-03-386                                                                              40
Abraham Lincoln Centre Welfare-to-Work Competitive Grant




                     Program                                                                                               Originating
Sample              Code & G/L                                       Amount                                             Program Code / or
  No.      Date      Account         Transaction Description        Questioned           Audit Determination                 Vendor

                                                                                 no approved CAP – benefits
                            IT Support – Accounting                              multiple ALC funding sources -
    108 11/30/01 705 - 5042 Software                                       1,527 direct charged to WtW                 Automated Solutions
                                                                                 no approved CAP – benefits
                                                                                 multiple BTW funding sources -        Northeastern Illinois
    114 10/31/01 705 - 5052 Rent / Phone for November 2001                 2,500 direct charged to WtW                 University
                                                                                 no approved CAP – benefits
                                                                                 multiple BTW funding sources -
 partial                                                                                                               Canon Financial
         10/11/01 705 - 5351 Copier / Printer Lease for $3,833             3,802 allocated to multiple ALC funding
   116                                                                                                                 Services
                                                                                 sources but only to WtW within
                                                                                 BTW
Administration Subtotal                                             $     22,024

TOTAL - SHARED COSTS NOT PROPERLY ALLOCATED $                             51,075


                                      Section H -- Transactions with Multiple Errors
                             May 2000 Insurance Cost of    See Inadequate Documentation / Excessive Costs and Shared Costs Not
      7      5/3/00 705-5021                                                                          1
                             $1,031                                                Properly Allocated
                              To charge correct program -
                              reallocation of $8,268 --                   See Unsupported Journal Entries, Inadequate Documentation /
     61    7/31/00 705 - 5351
                              Computer Equipment and                       Excessive Costs, and Shared Costs Not Properly Allocated
                              Software
                              September 2001 Insurance Cost
     73     9/1/01 705 - 5021 of $2,335                                 See Other Program Costs and Shared Costs Not Properly Allocated
                              Computer Equipment and
                              Software Lease - Total Charge         See Inadequate Documentation / Excessive Costs and Shared Costs Not
                                                                                                                   1
     92    7/25/01 705 - 5351 of $3,798                                                       Properly Allocated
                              Petty Cash - BTW Operations
                                                                                                                                       1
     95    9/20/01 705 - 5757 for $500                                   See No Supporting Documentation and Other Program Costs
                            Copier / Printer Lease                  See Inadequate Documentation / Excessive Costs and Shared Costs Not
                                                                                                                   1
    116 10/11/01 705 - 5351 for $3,833                                                        Properly Allocated


                                                               adjust expenses to proper program (credit of
                                       5    6/30/00 706 - 5011 $1,020)
                                                               Year End Journal Entries
                                      39    6/30/01 705 - 5010 (credit of $45,856)


                                                             Plane Tickets –
                                                                             1
                                      56 10/23/00 705 - 5305 3783-680942-820
                                                                                   1
                                      79    8/28/01 705 - 5061 Office Supplies




                                                                                                                        Amount
                                            Overall Summary                                                            Questioned


1 Item represents one of 32 transactions that lacked adequate segregation of duties on check request

DOL-OIG Audit Report No. 05-03-002-03-386                                                                                   41
Abraham Lincoln Centre Welfare-to-Work Competitive Grant




                                                                 Amount
                           Overall Summary                      Questioned
 TOTAL QUESTIONED COST – QFSR OVERSTATEMENT –
 FINDING 2a                                                      $    393,952
 Total – No Supporting Documentation                                   45,346
 Total – Unsupported Journal Entries                                  248,966
 Total – Inadequate Documentation / Excessive Cost                    112,553
 Total – Inadequate Documentation for Pay Periods                     314,717
 Total – Inadequate Documentation for Payroll Allocation               46,369
 Total – Other Program Costs                                           44,706
 Total – Shared Costs Not Properly Allocated                           51,075
 AMOUNT QUESTIONED – TOTAL FOR SAMPLE                            $    863,732
 Related Non-sampled Questioned Cost – resulting from
 Sample Item No. 42 (transfer of costs from Program Code 703)             1,862
 TOTAL QUESTIONED COST – RESULTS OF
 FINANCIAL SAMPLE – FINDING 2b                                   $    865,594
 TOTAL QUESTIONED COST – INELIGIBLE PARTICIPANTS –
 FINDING 2c                                                      $       428
 TOTAL QUESTIONED COST FOR AUDIT                                 $ 1,259,574




DOL-OIG Audit Report No. 05-03-002-03-386                            42
Abraham Lincoln Centre Welfare-to-Work Competitive Grant



                                                           ATTACHMENT A




                             ABRAHAM LINCOLN CENTRE
                             RESPONSE TO DRAFT REPORT




DOL-OIG Audit Report No. 05-03-002-03-386                       43
44
           Abraham Lincoln Centre Response to DOL Welfare-to-Work Competitive Grant Audit




                                   EXECUTIVE SUMMARY


In 1998, the Abraham Lincoln Centre (ALC) established the Bridge-to-Work Program to
provide comprehensive employment assistance to low-income families throughout
Chicago’s South side and South Suburban communities. ALC’s 97-year track record makes
it one of the oldest community-based organizations in Chicago. Our mission of helping
people to help themselves has made the Bridge to Work employment model one of the most
successful in the area as it relates to job preparation, training and placement of the hard-to-
employ TANF recipient.

Through a U.S. Department of Labor Welfare to Work grant, ALC received a $5,000,000
WtW Competitive Grant in 1999. The service strategy utilized by ALC to meet the
objectives of the WtW Competitive Grant focused on non-custodial parents and hard-to-
employ TANF recipients residing on the south side of Chicago and southern suburbs of
Cook County. ALC agreed to provide a minimum of 650 participants with job readiness and
job placement activities, post-employment training, job retention services, and case
management/support services. The WtW Competitive Grant called for the unsubsidized
placement of 450 participants, at a rate of $11,976 per placement, into employment by
September 2004. To date ALC has placed 275 of the 450 WtW Competitive Grant
participants into employment.

ALC focused its service strategy on building bridges to employment for non-custodial
parents by encouraging lifelong learning, providing job readiness, job placement, job
retention, post-employment case management and support services. In addition, ALC placed
a strong emphasis on providing support services to the family unit as the participant engaged
in job employment activities. This, we felt distinguished the ALC concept of an employment
and training model from others.

Since the grant was awarded in 1999, the Bridge to Work program has undergone three
Executive Director leadership changes. Under the new leadership that began in July of 2001,
the entire Bridge to Work program has undergone a restructuring of staff that is performance
driven and results oriented. The new leadership has improved retention strategies and post
employment support for each participant entering our program. Two key strategies
implemented under the leadership of this directorship involved 1) the addition of a
recruitment team to partner with organizations in providing on-site services for participants
who have difficulty in accessing our service sites. And 2) increased job-training strategies to
include the concept of “transferable skills” for participants who have one or more severe
barriers to employment. The ability of participants to have a certifiable skill prior to


DOL-OIG Audit Report No. 05-03-002-03-386                                                   45
           Abraham Lincoln Centre Response to DOL Welfare-to-Work Competitive Grant Audit



placement increases their chances for employment and retention. ALC has dedicated a
significant amount of additional job training costs to ensure that these training activities are
available for the participant until some level of certification occurs.

The successes of this new leadership team can be measured in its results, As of September
30, 2002, ALC has enrolled 609 participants. Of these 609 participants, ALC has placed 276
participants into a job. This equates to a 45% placement rate.

In March of 2002, the U.S. Department of Labors’ Office of Inspector General (OIG)
concluded an audit of the ALC’s WtW Competitive Grant. The objective of this
performance audit was to determine the validity of allegations made against ALC’s WtW
Competitive Grant Program of falsifying or altering time records, and whether the ALC was
in compliance with the WtW grant agreement and applicable laws and regulations. OIG
found no instances of noncompliance or material weaknesses in this audit as it related to the
falsification or altering of time records. However, the auditors had findings and
recommendations as a result of their audit. A summary to each finding is listed below.

   DOL Recommendation 1A.

   Implement a time distribution system in accordance with OMB Circular 122

   •   ALC Response to Finding 1A

   We disagree that staff costs were shifted from other ALC funding sources to the
   WtW Competitive Grant. Abraham Lincoln Centre incurred costs to operate the
   DOL WtW Competitive grants which were fairly presented in accordance with
   Generally Accepted Accounting Principles (GAAP) and audited in accordance with
   Generally Accepted Auditing Standards (GAAS) and Governmental Auditing
   Standards (GAS).

   ALC recognizes that we can continue to improve our systems. However, ALC has
   never had a finding from either our external auditors or governmental auditors
   stating that shortcomings in administrative controls rose to the level of a material
   weakness or a reportable condition. In all cases, these audits were conducted in
   accordance with generally accepted auditing standards and/or governmental
   auditing standards. Further, at no time during the four month audit period, or in
   subsequent reports, were unallowable costs specifically identified. ALC believes
   that all costs charged to DOL are allowable under the terms of the grant and were
   expended to support the goals and objectives of the program.



DOL-OIG Audit Report No. 05-03-002-03-386                                                   46
           Abraham Lincoln Centre Response to DOL Welfare-to-Work Competitive Grant Audit



    ALC will design and implement a time distribution system in accordance with
    OMB Circular A-122 and 29 CFR 95. The implementation date is January 2003.

    DOL Recommendation 1B

    Provide a full accounting of all payroll charged to major ALC funding including other
    DOL funding sources, and complete appropriate adjustments.

•   ALC Response to Finding 1B

    ALC will provide a full accounting of all payroll charged to major funding sources
    and complete appropriate adjustment. Additional cost to the Department of Labor
    may occur as a result of this process.

    DOL Recommendation 2A

    Recover $1,187,372 of questioned costs resulting from:

    1) an over reporting of expenditures on the QFSR of $315,677
    2) inadequately supported and unallowable costs found in the audit sample of ALC
       financial transactions charged to the grant ($817,677) and
    3) transportation cost in support of eight (8) ineligible participants ($428) as presented

•   ALC Response to Recommendation 2A

    1. ALC did not over report expenditures of $315,677 on the QFSR.
       Documentation is included in the body of this report as the response to Finding
       2A that demonstrates that total expenditures of $2,741,253 reported in the
       QFSR are in agreement with expenditures per the general ledger.
    2. We strongly disagree with DOL’s recommendation to recover costs of $871,677
       related to personnel and other expenditures. All costs were incurred to support
       the operation of the program. Costs incurred were valid and properly charged
       to the grant. We are dismayed that DOL contemplates the disallowance of
       these costs. Prior audits by, City, State, and other independent auditors
       validate our costs.
    3. Transportation costs of $428 were incurred for clients who were later deemed
       to in-eligible.




DOL-OIG Audit Report No. 05-03-002-03-386                                                   47
           Abraham Lincoln Centre Response to DOL Welfare-to-Work Competitive Grant Audit



    DOL Recommendation 2B

    Review the remaining $1,544,982 (costs not tested) to ensure these costs have been
    incurred in accordance with the terms of the grant agreement.

    DOL Recommendation 3A

    Restrict further cash drawdowns until ALC properly accounts for the WtW grant
    expenditures.

•   ALC Response to Recommendation 3A

    DOL’s audit of the programmatic component, at no time questioned the
    effectiveness of the program service delivery system; furthermore the achievements
    of service objectives were obtained at a cost consistent with the average placement
    cost of $11,976. DOL has recognized the program’s accomplishment by extending
    the grant through September 30, 2004.

    Further restrictions of cash draw downs would severely hamper the delivery of
    services. ALC fully plans to continue to properly account for WtW grant
    expenditures and we do not believe that cash draw downs should be suspended.
    This program cannot continue without reimbursement for expenses.

    DOL Recommendation 3B

    Direct ALC to maintain and report accurate participant and financial data on the QFSR,
    and correct MIS inaccuracies.

•   ALC Response to Recommendation 3B

    ALC conducted an internal audit review of 50 client files in response to the OIG’s
    audit. To ensure that participant financial data is correct ALC will document and
    implement procedures for QFSR reporting.

    DOL Recommendation 4A

    Develop a CAP and obtain the approval of DOL’s OASAM-OCD to ensure that ALC
    can properly report expenditures in accordance with the QFSR line item requirements




DOL-OIG Audit Report No. 05-03-002-03-386                                                   48
           Abraham Lincoln Centre Response to DOL Welfare-to-Work Competitive Grant Audit



•   ALC Response to Recommendation 4A

    ALC contacted and met with the Department’s Regional Cost Negotiator, on
    November 22 to review its Cost Allocation Plan. ALC will incorporate all
    recommendations and submit the Cost Allocation Plan to the Department of
    Labor’s Office of Cost Determination for approval.

    DOL Recommendation 4B

    Adjust previously applied shared costs charged to the WtW program code to all funding
    sources which also benefited from the expenditure

•   ALC Response to Recommendation 4B

    ALC’s CAP defines the allocation methodology for shared costs. ALC will review
    all previously applied shared costs charged to the WtW program and reallocate
    costs to all funding sources. Adjustments identified in this reallocation process may
    result in additional costs to the WtW Competitive grant.

    DOL Recommendation 5A

    Maintain source documentation for all accounting transactions

•   ALC Response to Recommendation 5A

    ALC’s Accounting Policies and Procedures manual requires that source
    documentation shall be maintained for all transactions. It is our policy to maintain
    source documentation for all transactions. ALC shall ensure compliance with its
    own procedure manual.

    DOL Recommendation 5B

    Obtain appropriate programmatic and financial approval prior to processing check
    requests.

•   ALC Response to Recommendation 5B

    ALC has an effective system of internal controls in place. It is our policy to have
    appropriate programmatic and financial approval prior to the processing of checks


DOL-OIG Audit Report No. 05-03-002-03-386                                                   49
           Abraham Lincoln Centre Response to DOL Welfare-to-Work Competitive Grant Audit



    and the organizational hierarchy has built in system checks. We will continue to
    monitor implementation of our internal controls.

    DOL Recommendation 5C

    Formalize QFSR reporting policies to ensure that adequate financial and programmatic
    information is maintained and QFSRs are reviewed prior to submission to ETA.

•   ALC Response to Recommendation 5C

    ALC will develop a formal policy for QSFR reporting by January 30, 2003. Time
    sheets will be utilized to track staff hours worked in support of the QFSR line item
    categories.

    DOL Recommendation 5D

    Ensure salaries charged to the grant are supported by employees time worked.

•   ALC Response to Recommendation 5D

    ALC will implement a revised time distribution system for staff time by the end of
    January 2003. Direct labor personnel will be required to complete time sheets by
    activity, and ALC will seek consultation on the development of an indirect costs
    rate. The indirect cost rate will be utilized to allocate salaries for administrative
    staff.

    DOL Recommendation 5E

    Post grant drawdowns in the appropriate accounting system program accounts to
    promptly and accurately maintain an audit trail of grant assets.

•   ALC Response to Recommendation 5E

    Our accounting system allows us to maintain an audit trail of grant funds and
    related expenses to the appropriate program code. The general ledger is used as a
    mechanism to track all grant drawdowns. Program codes are established for all
    funding sources which are used to record all funds and disbursements.




DOL-OIG Audit Report No. 05-03-002-03-386                                                   50
           Abraham Lincoln Centre Response to DOL Welfare-to-Work Competitive Grant Audit



    DOL Recommendation 6A

    Transfer $437 from the 70 percent to the 30 percent category expenditure accounts for
    the six misclassified participants

•   ALC Response to Recommendation 6A

    A total of 6 participants (12%) were fully eligible however, were misclassified. All
    participants have been reclassified appropriately from 70% eligibility to 30% and
    support dollars of $437.00 will be moved in the expense reporting.

    DOL Recommendation 6B

    Correct their MIS and QFSR to reflect the eight ineligible participants and the six
    misclassified participants

•   ALC Response to Recommendation 6B

    An audit was conducted on 50 files from the adjusted universe of 589 program
    participants. Eligibility testing revealed eight (8) ineligible and six (6) misclassified
    clients. Of the eight (8) ineligible files, direct transportation support totaling $428
    was distributed. ALC was able to obtain documentation from the Non-Custodial
    parent unit and IDHS system to render one (1) client fully eligible at time of
    enrollment. Transportation for one day given to this client totaled $5 This reduces
    total questioned cost to $423

    DOL Recommendation 6C

    Implement procedures to ensure evidence of public assistance and/or insufficient income
    prior to servicing clients

•   ALC Response to Recommendation 6C

    Prior to delivery of the DOL audit report, ALC implemented recommendations of
    several program enhancements to ensure all clients are eligible and appropriately
    classified before they are serviced: ALC ensures that eligibility screening and
    review of all intake documents is conducted during the initial client in-take
    sessions. Clients without necessary documentation are asked to return the following
    day with requested documents. ALC also requests a completed 2151 form from
    IDHS verifying length of time on TANF prior to enrollment. Non-Custodial parent

DOL-OIG Audit Report No. 05-03-002-03-386                                                   51
           Abraham Lincoln Centre Response to DOL Welfare-to-Work Competitive Grant Audit



   applicants are sent to the NCP unit for verification of responsible relative (RR) or
   alleged father (AF) status prior to enrollment. Simultaneously, ALC staff verifies
   evidence of public assistance for the dependent child through the IDHS system and
   the report is kept in the client’s folder.

Conclusion

After reviewing our response taken as a whole, we believe that DOL will conclude that
no material internal accounting control weaknesses exist, which would cause a high
level of risk of material misstatement to the financial statements. We acknowledge
that continuous improvements in administrative controls and in the application of
OMB A-122 and 29 CFR 95 is necessary. However, any findings detected by the DOL
auditors do not rise to the level of material weaknesses in internal accounting controls.
Our accounting system allows us to account for the source and use of DOL funding.
The Centre has never had a finding from either our external auditors or governmental
auditors stating that our shortcomings in administrative controls rose to the level of a
material weakness or a reportable condition. In all cases, these audits were conducted
in accordance with generally accepted auditing standards and/or governmental
auditing standards.

DOL’s audit of the programmatic component did not question the effectiveness of
service delivery. Furthermore, the achievement of service objectives is validated at a
cost consistent with the average cost per placement of $11,976 as found on the grant
program Synopsis Form of our approved grant. As of November 27, 2002, we are on
schedule to fulfill the requisite number of placements and meet the goals and objectives
of the grant.

Furthermore, expenses incurred on behalf of the BTW program exceeded
reimbursements from DOL and other sources for fiscal years 2000, 2001 and 2002. We
believe that review of these costs could result in additional expenditures being charged
to DOL.

Our complete detailed responses to DOL’s recommendations are incorporated in the
remainder of this report.




DOL-OIG Audit Report No. 05-03-002-03-386                                                   52
           Abraham Lincoln Centre Response to DOL Welfare-to-Work Competitive Grant Audit



             1. Staff Costs Were Shifted From Other ALC Funding Sources to the
                                  WtW Competitive Grant


In July 2001, ETA formally notified the OIG of an allegation from an anonymous source
that ALC staff time was being incorrectly reported, recorded, allocated, and shifted to the
WtW Competitive Grant through falsification or alteration of time records. We performed
fieldwork to determine the merits of the allegation. We were unable to conclude that the
time records were falsified or altered as alleged. However, we found grant payroll costs
included more employees than authorized, were not properly supported by source
documentation in accordance with OMB Circular A-I22, and, in some cases, were initially
accumulated in other programs and then reallocated to the grant.

OMB Circular A-I22, Attachment A requires allowable costs to be reasonable for the
performance of the award, be allocable in accordance with the relative benefits received, and
be adequately documented. Any cost allocable to a particular award may not be shifted to
other Federal awards to overcome funding deficiencies, or to avoid restrictions imposed by
law or terms of the award. Attachment B. 7.m (1) and (2) further defines adequate support of
salaries and wages:

... The distribution of salaries and wages to awards must be supported be personnel activity
reports ...Reports reflecting the distribution of activity of each employee must be maintained
for all staff members (professionals and nonprofessionals) whose compensation is charged,
in whole or in part, directly to awards... The reports must reflect an after-the-fact
determination of the actual activity of each employee.
Budget estimates (i.e. estimates determined before the services are performed) do not
qualify as support for charges to awards. Each report must account for the total activity for
which employees are compensated... The reports must be prepared at least monthly and
must coincide with one or more pay periods….

Recommendation

We recommend that the Assistant Secretary for Employment and Training instruct the ALC
to:
    a. Implement a time distribution system in accordance with OMB Circular A-122
    b. Provide a full accounting of all payroll charged to major ALC funding sources
       (including two other DOL funding sources) and complete appropriate adjustments




DOL-OIG Audit Report No. 05-03-002-03-386                                                   53
           Abraham Lincoln Centre Response to DOL Welfare-to-Work Competitive Grant Audit



ALC Response to DOL Finding 1

Payroll

The OIG selected seven payrolls for pay periods which spanned two fiscal years. Audit
results indicated that 92% of payroll costs were charged to the WtW grant. However, the
audit findings were extracted prior to our final adjustments at the end of the fiscal year. At
the end of the fiscal years ending June 30, 2001and 2002, corrective journal entries were
made to re-allocate personnel costs to accurately report total costs for all grants. Therefore
the sample results reported by the OIG are not reflective of the actual percentage of program
costs charged to the WtW grant on an annual basis. See Exhibit 1. for salaries analysis for
all fiscal years.

Payroll costs were questioned because we did not provide detailed time sheets for
employees working on the WtW Competitive Grant as required by an approved DOL CAP.
In order to reallocate staff cost, ALC will utilize payroll registers, organization charts and
participant data to reconstruct staff time spent in accordance with our new time distribution
system. The appropriate time distribution system was established January 2002. Given the
programmatic performance of the grant, it is not practical to assume that all payroll costs
should be recovered as suggested by the audit.

ALC deployed additional personnel resources to fully service clients enrolled in this
program and we are able to document and fully support staffing levels based on services
delivered.

Even though there were questioned costs, ALC incurred costs which were fairly presented in
accordance with Generally Accepted Accounting Principles and audited in accordance with
Government Auditing Standards. Audit results from external audits performed by other
funding sources and the organization’s independent auditors substantiated this fact.

Reallocation of Expenditures

The OIG indicated that for five reallocations of expenditures there was no supporting
documentation. ALC fully understands that an effective system of internal controls provides
the mechanism to validate the accuracy of transactions, which includes maintaining
adequate supporting documentation. Proper supporting documentation was not maintained.
Under new leadership as of March 2002, several changes have been made to improve and
strengthen internal controls. A myriad of controls have been put in place. One significant
change is the stratification of approval levels before journal entries can be recorded.
Additional improvements in controls are: first, all journal entries below $10,000 must be


DOL-OIG Audit Report No. 05-03-002-03-386                                                   54
           Abraham Lincoln Centre Response to DOL Welfare-to-Work Competitive Grant Audit



supported by documentation and approved by the Director of Finance before posting.
Second, the accounting staff is required to provide support documentation at the time the
journal entry is presented to the Director of Finance for approval. Finally, the

Chief Financial Officer reviews the general journal on monthly journal entries with the
Director of Finance. If there is a disagreement with a record entry, that entry is reversed and
the correct entry added before monthly financial statements are issued.

The OIG questioned the reallocation of a legal settlement. The legal settlement expense in
question resulted from a wrongful discharge claim filed by two former employees of the
Employment, Training and Education Department (Bridge to Work). The settlement was
paid by Abraham Lincoln Centre’s liability insurance; however, the insurance retention fee
of $7,500 was a cost the Centre had to absorb. The cost of this retention fee was divided
between programs to cover both employees involved in this legal settlement.

Originally, the fee was charged to the WtW Competitive Grant (50%) and both IDHS
program codes (25% each) because one employee’s salary was allocated to these programs
at said percentage rate. Subsequently, a review of our records determined that the other
employee’s salary involved in this legal settlement was charged to the Illinois Department of
Human Services TANF program, and at which time one half of the retention fee was
reallocated to this program.

Expenditure Reduction Credits

The credit transactions selected for audit are examples of reclassifying journal entries which
were made as a part of the reconciliation process to fairly state costs for the organization’s
awards.

DOL RECOMMENDATIONS add

ALC Response to Recommendation

       a. ALC will design and implement a time distribution system in accordance
       with OMB Circular A-122 and 29CFR 95. The projected implementation date is
       January 2003.

       b. ALC will provide a full accounting of all payroll charged to major funding
       sources and complete appropriate adjustments. Additional costs to other
       Department of Labor as a result of this process will be reflected.



DOL-OIG Audit Report No. 05-03-002-03-386                                                   55
           Abraham Lincoln Centre Response to DOL Welfare-to-Work Competitive Grant Audit



                                       2. Questioned Costs

We question $1,187,372, or 43 percent of the $2,741,253 claimed by ALC. The questioned
costs include an over-reporting of expenditures on the QFSR ($315,267); unsupported,
inadequately supported, and unallowable costs ($871,677); and costs associated with
ineligible participants ($428) as documented in Finding No.6.

A. QFSR Expenditures Overstated

The ALC submitted a QFSR, dated February 25,2002, claiming $2,741,253 of grant
expenditures through December 31,2001. For the same period, ALC's general ledger
documented cumulative grant expenditures of $2,425,986. Consequently, the QFSR
expenditures were overstated by $315,267 ($2,741,253 less $2,425,986).

29 CFR Part 95.21(b)(1) states:

Recipients' financial management systems shall provide... Accurate, current and complete
disclosure of financial results of each federally-sponsored project or program in
accordance with the reporting requirements ...; and (7) adds: Accounting records including
cost accounting records that are supported by source documentation.

ALC officials were unable to provide the cause of this excessive claim, but did indicate that
they do not have a complete understanding of ALC's automated accounting system due to
recent staff turnover. The over-reporting of expenditures circumvents ETA's ability to
prevent excessive cash drawdowns.

B. Audit Results of Financial Sample

We selected 120 transactions for audit totaling $879,142, or 36 percent of cumulative grant
expenditures ($2,425,986) as documented in the ALC general ledger. Our audit disclosed
that 95 percent of the sampled transactions (114 of 120) resulted in inadequately supported
and/or unallowable costs totaling $869,815, or 99 percent of sampled costs. We also
question an additional $1,862 related to a personnel transaction in our sample for total
questioned costs of $871,677. Based upon this high percentage of questioned costs, we
believe that ETA should review the remaining costs not tested to ensure these costs have
been incurred in accordance with the terms of the grant agreement.

The results of our audit are presented in the Table 2a on the next page:




DOL-OIG Audit Report No. 05-03-002-03-386                                                   56
           Abraham Lincoln Centre Response to DOL Welfare-to-Work Competitive Grant Audit



We determined that 114 transactions were not in compliance with 29 CFR Part 95, OMB
Circular A-122, or ALC's accounting policies and procedures (see Exhibit A for details).
Therefore, we question $871,677.

C. Ineligible Participants

We question $428 of direct transportation costs associated with servicing eight participants
considered ineligible in Finding No; 6. ALC's participant MIS indicated that $428 of
transportation costs were provided on behalf of the eight participants. However, it was not
possible to trace the transportation costs by participant through the ALC accounting system.

Recommendation

We recommend that the Assistant Secretary for Employment and Training:

   a. recover $1,187,372 of questioned costs resulting from:

               •        an over-reporting of expenditures on the QFSR ($315,267),
               •        inadequately supported and unallowable costs found in the audit
                        sample of the ALC financial transactions charged to the grant
                        ($871,677), and
               •        transportation costs in support of 8 ineligible participants ($428) as
                        presented in Finding No. 6, and

   b. review the remaining $1,544,982 (costs not tested) to ensure these costs have been
      incurred in accordance with the terms of the grant agreement.




DOL-OIG Audit Report No. 05-03-002-03-386                                                   57
           Abraham Lincoln Centre Response to DOL Welfare-to-Work Competitive Grant Audit



                             ALC Response to DOL Finding 2A

1) ALC did not over-report expenditures of $315,267 on the QFSR. Expenditures
reported on the QFSR are based on a summary of the following:

    Expenditure Item                   Time Period                           Costs
     General Ledger                Three months ending                      $698,533
                                         12/31/01
      General Ledger               Three months ending                      $315,957
                                         9/30/01
  Independent Financial            Year ending 6/30/01                      $910,685
         Audit
  Independent Financial             Year ending 6/30/00                     $816,207
         Audit
         Total                                                             $2,741,253

The QFSR information listed on the table above was based on interim quarterly
financial statements for the period ending December 31, 2001 and September 30, 2001,
as well as audited financial statements for fiscal years 2000 and 2001. Included in the
exhibits is the source documentation which was used to complete the QFSR report. It
appears that the DOL’s auditors may have excluded the quarterly interim statement as
of September 30, 2001 in their computation.

Based on this information, the general ledger and the QFSR are in agreement and
ALC did not over report expenditures. Documentation to support this illustration can
be found in Exhibit 2.1 through Exhibit 2.5.

2) We strongly disagree with DOL’s recommendation to recover $871,677 in costs
   related to personnel and other expenditures. All costs were incurred to support the
   operations of the program. While a DOL approved CAP was not in place, costs
   incurred were valid and applied according to our existing cost allocation plan. We
   are dismayed that DOL contemplates the disallowance of these costs. Prior audits
   by City, State, and independent auditors validate our costs. In our research, we
   found no unallowable costs.

Approximately, 41% ($361,086) of the questioned costs were related to personnel and
were questioned because of improper preparation of time sheets. These costs were
incurred for valid employees who worked on the WtW grant. The remaining
questioned costs of $510,591 related to inadequate documentation for non-personnel
expenditures incurred for the program over a three year period. It appears that DOL’s

DOL-OIG Audit Report No. 05-03-002-03-386                                                   58
           Abraham Lincoln Centre Response to DOL Welfare-to-Work Competitive Grant Audit



position is that it will not pay for any costs. We are dismayed that DOL questions 99%
of all costs audited three years after the award of the grant. According to this
recommendation DOL is suggesting that they do not want to reimburse us for any of
the staff costs related to this grant over the last three years. Nor do they want pay for
occupancy, utilities and supplies incurred to recruit, place and employ over 500
participants. We strongly disagree with DOL’s recommendations.

3) Transportation costs of $428 are costs incurred for participants who were later
deemed in-eligible. Therefore, we agree these costs should not be charged to DOL.

ALC Response to Findings and Recommendation 2B

The remaining $1,154,982 costs should not be tested. ALC has been audited by its
external auditors as well as auditors from various City and State funding sources. In
all cases, expenditures were recorded in accordance with GAAP and audited in
accordance with GAAS and GAS. There were no questioned costs, there were no
compliance issues and there were no audit reports that cited material internal control
weaknesses that present a high level of risk of misstatements in amounts that would be
material in relation to the financial statements. It is ALC’s position that the
conclusions reached by DOL’s audit are unwarranted and excessive in their
application to the entire grant. It is also ALC’s position that all costs incurred were
fairly presented and properly charged to the WtW grant.

By recommending that DOL recover every dollar spent on this program including all
personnel, all occupancy, all training costs and all supply costs does not acknowledge
the 589 individuals who came to our program and received services over a three year
period of the WtW Competitive grant. So, we therefore strongly disagree with the
recommendation of the auditors.

DOL’s audit of the programmatic component did not question the effectiveness of
service delivery. Furthermore, the achievement of service objectives was obtained at a
cost consistent with the average cost per placement of $11,976 as found on the Program
Synopsis Form of our approved grant. As of November 27, 2002, we are on schedule to
fulfill the requisite number of placements and meet the goals and objectives of the
grant.




DOL-OIG Audit Report No. 05-03-002-03-386                                                   59
           Abraham Lincoln Centre Response to DOL Welfare-to-Work Competitive Grant Audit



                         3. Non-compliance with Grant Requirements

ALC did not always comply with grant requirements regarding cash management and QFSR
reporting.

   A. Cash Management Procedures Are Not Adequate

                                ALC obtained excessive cash from the grant as compared to
    ALC obtained                booked expenditures. As of December 31, 2001, ALC's QFSR
  $237,902 of excess
 cash from the grant            reported expenditures were $2,741,253 while ALC's general
                                ledger documented cumulative grant expenditures of
                                $2,425,986. ALC had accumulated cash draw downs of
                                $2,663,888 from the grant through December 31, 2001. We
                                concluded that ALC had obtained at least $237,902
                                ($2,663,888 less $2,425,986) of excess cash as of December
                                31,2001.

29 CFR 95.22 (a) states:

       Payment methods shall minimize the time elapsing between the transfer of funds
       from the United States Treasury and the issuance or redemption of checks... by the
       recipients (b)(2) states ... Cash advances to the recipient organization shall be
       limited to the minimum amounts needed and be timed to be in accordance with the
       actual, immediate cash requirements of the recipient organization in carrying out
       the purpose of the approved program or project.

ALC obtained the excess cash prior to an existing bona fide need to meet grant related
disbursements. We found a general pattern that ALC would transfer cash from the bank
account established for BTW to the ALC operating and payroll accounts of another bank.
We also determined that all BTW revenues, in addition to the WtW Competitive Grant,
were processed through the bank account established for WtW. Therefore, the individual
cash balances of each BTW funding source lose their identity through the process of
transferring funds to ALC's operations and payroll accounts of the other ALC bank.




DOL-OIG Audit Report No. 05-03-002-03-386                                                   60
           Abraham Lincoln Centre Response to DOL Welfare-to-Work Competitive Grant Audit



B. QFSR Detail Line Items Are Not Supported

                                  We were unable to reconcile WtW expenditure line item
   QFSR detail line items do      categories as reported on the December 31,2001 QFSR to
    not reconcile to general
         ledger or MIS
                                  ALC's financial records. These line items included 70
                                  percent and 30 percent expenditures, and administrative
                                  versus program expenditures.

20 CFR 645.211 states:

. . . may spend not more than 30 percent of the Wt W funds allotted to or awarded to the
operating entity to assist individuals who meet the “other eligibles” eligibility requirements.
. . The remaining funds allotted to or awarded to the operating entity are to be spent to
benefit individuals who meet the “general eligibility” and/or “noncustodial parents”
eligibility requirements. . .

20 CFR 645.235(a)(2) states:

       . . . The limitation on expenditures for administrative purposes under WtW
       competitive grants will be specified in the grant agreement but in no case shall the
       limitation be more than fifteen percent (15%) of the grant award.

The ALC accounting system never incorporated the QFSR expenditure reporting
requirements and ALC staff did not maintain an audit trail from reported line items to source
documentation. The ALC staff could not document which expenditures in the general ledger
were associated with 70 percent and 30 percent expenditures, or with administrative versus
program expenditures. As a result, it was not possible to reconcile any QFSR detail line item
expenditures to the financial records. The breakdown of expenditures is important because
of regulatory limitations on costs.

It should be disclosed that the ALC staff began utilizing a time sheet to track hours worked
in support of the QFSR line item categories immediately after our audit period.

The reporting of participants served on the QFSR was also incorrect.

20 CFR 645.240(d) Participant reports, states:

       Each grant recipient must submit participant reports to the Department. Participant
       data must be aggregate data, and, for most data elements, must be cumulative. . . .



DOL-OIG Audit Report No. 05-03-002-03-386                                                   61
           Abraham Lincoln Centre Response to DOL Welfare-to-Work Competitive Grant Audit



The ALC reported 800 participants served on the December 31, 2001 QFSR (567 as
70 percent and 233 as 30 percent). The ALC's MIS included 800 participants that applied for
the WtW program through December 31,2001. Initial testing revealed that some of these did
not meet the ETA definition of "participant served." The ALC officials subsequently
confirmed that 211 of the reported 800 did not meet ETA's definition. Of the remaining 589
(800 less 211) "participants served," 397 were designated as 70 percent, and 192 were
designated as 30 percent.

Inaccurate programmatic reporting affects ALC's ability to accurately track QFSR line item
category costs in accordance with a CAP and affects ETA's ability to properly exercise its
stewardship responsibility over the WtW program.

Recommendation

We recommend that the Assistant Secretary for Employment and Training:

       a. restrict further cash drawdowns until ALC properly accounts for the WtW grant
       expenditures, and

       b. direct ALC to maintain and report accurate participant and financial data on the
       QFSR, and correct MIS inaccuracies.


     ALC Response to DOL Finding 3A – Restriction of Further Cash Drawdowns

We disagree with DOL’s recommendation to restrict further cash drawdowns.
The program is meeting our job placement benchmarks in accordance the competitive
grant, and WtW grant expenditures are identifiable in our accounting records.

ALC had no excess cash compared to booked expenditures (Exhibit 3.1). As of
December 31, 2001, ALC’s general ledger documented cumulative grant expenditures
of $2,741,253. ALC accumulated cash drawdowns of $2,663,888 through December 31,
2001. ALC’s program support outlay’s exceeded cash draw downs by $77,365
($2,741,253 less $2,663,888).

ALC obtained cash as needed to meet grant related disbursements. ALC utilizes two
main bank accounts; one is used for operating expenses and the other for payroll
expenses. Because ALC receives several grants from various funding sources it is not
practical to establish a bank account for each grant. Instead, the agency utilizes these
two bank accounts for all organization expenditures.


DOL-OIG Audit Report No. 05-03-002-03-386                                                   62
           Abraham Lincoln Centre Response to DOL Welfare-to-Work Competitive Grant Audit




ALC’s general ledger is used as a control mechanism to account for each grant, all
revenue and expenditures are tracked through the use of program and account codes.
Therefore the balance of an individual program or funding source does not lose its
identity in the accounting process.

 ALC Response to DOL Finding 3B – Maintenance of Participant and Financial Data
                     on the QFSR and MIS Inaccuracies


The audit trail for ALC’s QSFR submitted on February 25, 2002, can be traced back
to ALC’s audited financial statements for FY 2000 ($816,207) and FY 2001 ($910,556),
the remaining period for the QSFR report July 2001 thru December 2001 ($1,014,490)
equals a combined total ($2,741,253) which corresponds to ALC’s general ledger for
that period. (See Exhibit 3.2).


ALC began utilizing time sheets to track billable staff hours in support of the QSFR
line item categories in January 2002. This allows ALC to charge the actual hours staff
accumulated servicing DOL/WtW clients. Furthermore, ALC maintains monthly
statistics on its clients by program and category (70%/30%).

ALC’s grant program synopsis form indicates an average service cost of $11,976 per
client. ALC’s finance department will utilize individual client data to calculate
overhead cost allocations consistent with its cost allocation plan.




DOL-OIG Audit Report No. 05-03-002-03-386                                                   63
           Abraham Lincoln Centre Response to DOL Welfare-to-Work Competitive Grant Audit



                              4. Incomplete Cost Allocation Plan

The ALC is composed of several operating components including Administration, Child
Development Services, Special Education and Mental Health, Residential Services, Social
Work, Economic Development, and Employment and Training. The ALC Employment and
Training component is commonly known as BTW. During our audit period, BTW was
funded by several agencies in addition to the WtW Competitive Grant.

The Grant Agreement, Part IV, Special Clause No. 2 requires all awardees receiving funds
from multiple funding sources to complete this section requiring the inclusion of an
approved CAP and/or an Indirect Cost Rate. ALC did not maintain an approved CAP or
obtain an indirect cost rate.

29 CFR 95.21(b)(6) states:

       Recipients' financial management systems stall provide... written procedures for
       determining the reasonableness, allocability and allowability of costs in accordance
       with...Federal cost principles and the terms and conditions of the award.

Because ALC did not maintain an approved CAP, we identified 21 transactions in our
sample that were unallowable as a result of ALC:

   o    direct charging the WtW program code for shared ALC agency costs,
   o    direct charging the WtW program code for costs benefiting all BTW programs, or
   o    allocating costs to multiple ALC funding sources but only to the WtW program
       code within BTW.

As of March 28, 2002, ALC officials provided the OIG with a "draft" CAP. However, the
CAP had not been submitted to or approved by DOL's OCD.

Recommendation

We recommend that the Assistant Secretary for Employment and Training ensures that
ALC:
  a. develops a CAP and obtains the approval of DOL's OASAM-OCD to ensure that
      ALC can properly report expenditures in accordance with the QFSR line item
      requirements, and




DOL-OIG Audit Report No. 05-03-002-03-386                                                   64
           Abraham Lincoln Centre Response to DOL Welfare-to-Work Competitive Grant Audit



b. adjusts previously applied shared costs charged to the WtW funding sources which also
benefited from the expenditure.

          ALC Response to DOL Finding 4 - Incomplete Cost Allocation Plan

ALC operates multiple programs at various locations. The organization provides child
development and welfare, employment training, economic development, social work,
special education, mental health, developmental training and residential services.
These services are offered through programs at five divisions – Residential Services,
Social Work Services, Special Education, Child Welfare, and Employment and
Training. The organization accumulates management and general expenses in the
Administration cost center. A CAP policy statement was issued on June 14, 2000 by
the former President and CEO (See Exhibit 4.1).

We developed a detailed Cost Allocation Plan which was reviewed and accepted by
other funding sources. The present administration could not locate documents
indicating that ALC was not in compliance in receiving approval for its CAP from the
Department of Labor’s Office of Cost Determination. Since DOL fieldwork, ALC has:

   a. ALC contacted and met with a DOL Regional Cost Negotiator to review our
      current Cost Allocation Plan. The DOL staff person recommended changes to
      our CAP. Accordingly, ALC will to incorporate those recommendations and
      submit the Cost Allocation Plan to the Department of Labor’s Office of Cost
      Determination for approval. See a draft Cost Allocation Plan with DOL staff
      review comments at Exhibit 4.2.

   b. ALC will review all previously applied shared costs charged to the WtW
      program. Adjustments identified may result in additional costs to the WtW
      grant.




DOL-OIG Audit Report No. 05-03-002-03-386                                                   65
           Abraham Lincoln Centre Response to DOL Welfare-to-Work Competitive Grant Audit



Abraham Lincoln Centre Response to DOL Welfare-to-Work Competitive Grant Audit
________________________________________________________________________

                         5. Internal Controls Need To Be Strengthened

                                Several internal control weaknesses were discovered during
       Internal control         audit that may have contributed to and compounded other
     weakness in ALC’s          findings. A sound system of internal control includes complete
     accounting, payroll        documentation, policies and procedures, segregation of duties,
    and reporting systems       as well as supervisory review and approval.



29 CFR Part 95.21 (b)(2)(3) and (7) state:

       Recipients' financial management systems shall provide... Records that identify
       adequately the source and application of funds for federally sponsored activities.
       These records shall contain information pertaining to Federal awards, ...assets,
       outlays….; Effective control over and accountability for all funds, property, and
       other assets. Recipients shall adequately safeguard all such assets and assure that
       they are used solely for authorized purposes….; and Accounting records including
       cost accounting records that are supported by source documentation.

We found that ALC did not maintain source documentation to support accounting entries,
processed check requests directly through accounting staff, had no QFSR reporting system,
did not maintain time sheets for every employee, paid employees for non-work periods, and
did not properly account for grant drawdowns.

Missing source documentation

ALC could not provide source documentation for 58 of 120 transactions (48 percent of
sample) that represents $403,240 of questioned costs. The high error rate establishes an
increased risk of the ALC accounting system being unreliable.

Check requests processed directly through or not documented by accounting staff

ALC provided documentation to support 62 of 120 transactions. Nine of the 62 transactions
were payroll-related and did not involve check requests. Of the 53 transactions involving
check requests, we determined 29 of 53 (55 percent) lacked acceptable segregation of duties
(see Exhibit A). In most cases, the check requests were simply processed by the accounting


DOL-OIG Audit Report No. 05-03-002-03-386                                                   66
           Abraham Lincoln Centre Response to DOL Welfare-to-Work Competitive Grant Audit



clerk without any documented oversight/approval of BTW officials or other ALC Finance
staff. We also found three check requests even lacked the initials of the accounting clerk
who processed the request. The high error rate establishes an increased risk of the ALC
accounting system being undeniable.

No QFSR reporting system

ALC had not established a formal system for the preparation and subsequent documentation
of the QFSR submitted to ETA for this grant. Instead, the ALC Finance official responsible
for obtaining and submitting the QFSR data to ETA informed us that programmatic data is
obtained from BTW and current quarter expenditures are added to the previous QFSR's line
item totals for preparation of the current QFSR.

Salaries paid do not reconcile with employees time worked

For the pay period ending April 15, 2001, we found three employees' payroll time sheets did
not reconcile to paid salary. One employee's time sheet documented one workday as leave
without pay. Another employee's time sheet documented two workdays as suspension. The
third employee's time sheet documented two workdays as leave without pay. However, all
three employees received full pay. For the pay period ending July 31, 2001, we found
another employee's time sheet did not reconcile to the paid salary. The employee's time
sheet documented three workdays with no activity but the employee received full pay. We
question the associated payroll costs for these staff in Finding No. 2.

Grant drawdowns cannot be traced to ALC's accounting records

We were unable to trace 29 of 37 tested grant drawdowns (78 percent) to the appropriate
cash account in the ALC books of record for the grant. Further, we were unable to trace five
drawdowns (14 percent) to the revenue account established for the WtW Competitive Grant.
As a result, the grant's cash loses its identity within the BTW component of ALC and
becomes co-mingled with BTW's other funding source revenue.

Recommendation

We recommend that the Assistant Secretary for Employment and Training require ALC to
strengthen financial management internal controls by:

   a. maintaining source documentation for all accounting transactions,
   b. obtaining appropriate programmatic and financial approval prior to processing check
      requests,


DOL-OIG Audit Report No. 05-03-002-03-386                                                   67
           Abraham Lincoln Centre Response to DOL Welfare-to-Work Competitive Grant Audit



   c. formalizing QFSR reporting policies to ensure that adequate financial and
      programmatic information is maintained and QFSRs are reviewed prior to
      submission to ETA,
   d. ensuring salaries charged to the grant are supported by employees’ time worked, and
   e. posting grant drawdowns in the appropriate accounting system promptly and
      accurately maintain an audit trail of grant assets.


            ALC Response to DOL Finding 5 – Inadequate Internal Controls

The Abraham Lincoln Centre possesses an effective system of internal control. (See
policy statement issued by the administration at Exhibit 5.1). Our administrative and
accounting controls are designed to validate transactions, determine the accuracy of
recorded amounts, insures the completeness of transactions, monitor accounting
records for accuracy and completeness, and safe guard assets. These five basic
objectives are part of our document policies and procedures. It is our policy that all
accounting transactions are supported by authoritative documentation before
processing. The organizational hierarchy of the accounting department, divisional
heads and the chief executive officer provides for segregation of duties and supports
multiple layers of supervisory review and approval.

Since DOL field work, we have stabilized our accounting managerial and clerical staff
and have noticed the continuous improvement in adhering to company policies and
procedures. At the time of DOL fieldwork, there were no accounts payable staff
members who had been with the organization more than a month. The timing of the
audit combined with the staff changes taking place in the accounting department
unfortunately caused misleading results. Documentation retrieved during our
investigation refutes the reports findings and conclusions. Our response to specific
internal control weaknesses in our accounting, payroll, and reporting system follows:

5a. Missing source documents

Changes in key accounting personnel contributed to the difficulty in retrieving the
source documentation requested by DOL auditors. The use of temporary help in our
accounts payable department during administrative transition contributed to our
inability to identify and retrieve requested source documentation during DOL audit
field work.

Accordingly, current staff was successful in finding source documentation for 24 of the
58 missing items (See Exhibits 2.7 to 2.33). Substitute documentation was located for


DOL-OIG Audit Report No. 05-03-002-03-386                                                   68
           Abraham Lincoln Centre Response to DOL Welfare-to-Work Competitive Grant Audit



three other. Had this documentation been made available during field work, we believe
DOL auditors would not have concluded our accounting system is unreliable.


5b. Check request processed directly through or not documented by accounting staff

We disagree with this audit finding that duties are not adequately segregated because
check requests lacked signatures of BTW officials nor were initialed by the accounts
payable clerk who processes the check. One should not conclude that our accounting
system possesses an increased risk of unreliability due to the absence of signatures or
initials on administrative control documents.

Exhibit 5.2 represents the Cash Disbursements and Bank Transfer Processing policies
established by the former President and CEO dated April 25, 1999. This policy
predates the DOL competitive grant. Exhibit 5.3 is the Accounts Payable-Open Invoice
and Payment Processing policy revised on February 1, 2000 and Exhibit 5.4 represents
the purchasing policies revised June 14, 2000 and effective July 1, 2000. These policies
were also approved and issued by the former President and CEO of ALC.

The Executive Director of the Employment and Training division forwards invoices to
our accounts payable staff for payment. The accounts payable staff must review the
invoice, check our accounts payable module for possible duplication, and enter the
open invoice in the accounting system in order to process the check. All disbursements
require two signatures. Both signatures can not be facsimiles. A voucher consisting of
the check request and the attached invoice are presented to the Chief Financial Officer
for her signature. The live signature is almost always our Chief Financial Officer. In
those rare instances where she has not been available, the other live signature is
usually our Chief Operating Officer. Therefore, in all cases, no funds are disbursed
without proper review and authorization, even if check requests have not been
properly initialized by accounts payable clerks. It is our policy that all check request
and supporting documentation are verified by an accounts payable clerk and reviewed
by the accounts payable supervisor.

5c. No QFSR reporting system

A formal system for the preparation and subsequent documentation of the QFSR
submitted to ETA was established. Reported financial data is taken from our general
ledger and ALC began utilizing time sheets to track staff hours worked in support of
the QSFR line item categories in January 2002. This allows ALC to determine actual



DOL-OIG Audit Report No. 05-03-002-03-386                                                   69
           Abraham Lincoln Centre Response to DOL Welfare-to-Work Competitive Grant Audit



hours that shared staff have serviced DOL/WtW clients. ALC maintains monthly
statistics on its clients by fund and category (70%/30%).

ALC has received technical assistance from DOL’s systems accountant, and has
implemented procedures for reporting the 70/30 split appropriately to these line items.

5d. Salaries paid do not reconcile with employees time worked

It is not the policy of Abraham Lincoln Centre to pay employees for non-work periods.
The Centre maintains time and attendance sheets for all employees. These time and
attendance sheets are completed semi-monthly by employees and signed by
supervisory personnel to substantiate accuracy of time worked. The time and
attendance sheets are submitted to the payroll coordinator whose responsibility is to
prepare the semi-monthly payroll checks based on the information obtained from said
time and attendance sheets.

The employees paid for hours not worked at the end of the April 15, 2001 pay period
was an error. One employee was paid $126.40 for a day of leave without pay; one
employee was paid $230.30 for two days of suspension and one employee was paid
$322.40 for two days of leave without pay. The total improper payment for all three
employees amounted to $679.10. This error in payment, fully, was a result of a newly
hired payroll coordinator that was not properly trained to process the payroll. The
payroll coordinator was hired in this position on April l, 2001.

The payment given to the employee for pay period ending July 31, 2001 for
unsubstantiated days of work was due to an oversight of an incomplete time and
attendance sheet. The employee received payment for two days in the amount of
$322.40.

The Centre currently employs a full time Human Resources Director that has the
responsibility of reviewing the time and attendance sheets, comparing same against
the check register, identifying any unsubstantiated payments and take necessary action
to avoid payment for non-work hours/days.

5e. Grant drawdowns cannot be traced to ALC’s accounting records

ALC draws DOL funding on a reimbursement basis. Once the monthly closing takes
place for DOL costs, the total costs for the month are recorded as a receivable for that
month.



DOL-OIG Audit Report No. 05-03-002-03-386                                                   70
           Abraham Lincoln Centre Response to DOL Welfare-to-Work Competitive Grant Audit



Funds drawn from DOL are wired into a special account at Seaway Bank in Chicago.
Funds are then transferred to our operating account to reimburse ALC for expenses
incurred. Both transactions are easily identifiable in our accounting records through
the use of general ledger codes, program codes, and account codes. Therefore, the
balance of an individual program or funding source does not lose its identity in the
accounting process.

DOL’s audit of the programmatic component did not question the effectiveness of
service delivery. Furthermore, the achievement of service objectives were obtained at
a cost consistent with the average costs per placement of $11,976 as found on the Grant
Program Synopsis Form of our approved grant. As of November 27, 2002, we are on
schedule to fulfill the requisite number of placements and meet the goals and objectives
of the grant.




DOL-OIG Audit Report No. 05-03-002-03-386                                                   71
           Abraham Lincoln Centre Response to DOL Welfare-to-Work Competitive Grant Audit



                   6. Inadequate Participant Eligibility and Documentation

We judgmentally selected a sample of 50 participants from the adjusted universe of 589
participants served for participant eligibility testing. The sample was divided into two
groups based upon the eligibility determination date. We determined that 5 of the sampled
participants enrolled before January 1, 2000, and the remaining 45 enrolled from January 1,
2000 through December 31, 2001. This was necessary because WtW eligibility requirements
changed as of January 1,2000. Our eligibility testing revealed eight ineligible and six
misclassified participants were served in BTW's WtW program.

A. Ineligible Participants

                                Of the 50 participants in our sample, 8 were considered
 8 ineligible participants      ineligible for WtW based on insufficient, incomplete, or
  resulted in questioned        undocumented public assistance information and/or
      costs of $428             undocumented participant income as of the eligibility
                                determination date.

20 CFR 645.212(a) and (b) (dated November 18, 1997) state:

An individual is eligible to be served under the 70 percent provision if…, The individual is
receiving TANF assistance; and" ,Has received assistance under the State TANF program,
and/or its predecessor program, for at least 30 months .,.A noncustodial parent of a minor is
eligible to participate under the 70 percent provision if the custodial parent meets the
eligibility requirements ...

20 CFR Part 645.212(c) (dated January 11, 2001) states:

An individual may be served under this provision if,. (S) he is a noncustodial parent of a
minor child if., ,At least one of the fallowing applies: (i) The minor child, or the custodial
parent of the minor child, meets the long-term recipient of TANF requirements ".(ii) The
minor child is receiving or is eligible for TANF benefits and services; (iii) The minor child
received TANF benefits and services during the preceding year; or (iv) The minor child is
receiving or is eligible for assistance under the Food Stamp program, the Supplemental
Security Income program, Medicaid, or the Children's Health Insurance Program,..




DOL-OIG Audit Report No. 05-03-002-03-386                                                   72
           Abraham Lincoln Centre Response to DOL Welfare-to-Work Competitive Grant Audit



20 CFR 645.213 (a) and (c) (dated January 11, 2001) state:

       Any individual may be served under this provision if (s)he...Is currently receiving
       TANF assistance.. .Is a custodial parent with income below 100 percent of the
       poverty line...

Of the eight considered ineligible, seven were enrolled in WtW as noncustodial parents.
However, the participants' files did not have the proper documentation verifying the
custodial parent's or their child(ren)’s public assistance eligibility. The noncustodial parents
also did not meet the requirements for other WtW eligibility categories.

The remaining ineligible was enrolled in WtW as a custodial parent with income below the
poverty line. However, the participant's file did not provide proof of income or TANF
eligibility.

Since ALC did not have necessary documentation in all participants' files, we consider the
eight participants to be ineligible. ALC's MIS indicates $428 of direct transportation
services were provided on behalf of the participants considered ineligible. We question the
$428 of direct transportation services in Finding No. 2.

B. Misclassified Participants

                                Our eligibility testing also disclosed six participants who were
     6 misclassified            considered improperly classified in the WTW program. One
       participants             participant was classified as hard-to-employ noncustodial
                                (70%) enrolled before January 1, 2000; and five participants
                                were classified as primary eligibles (70%) enrolled after
                                January 1, 2000. The misclassified hard-to-employ participant
                                file did not include evidence that the custodial parent had
received TANF and/or Aid to Families with Dependent Children (AFDC) for 30 months or
more at the time of WtW enrollment. The misclassified primary eligibles included four
custodial parent files that did not include evidence that they had received TANF and/or
AFDC for 30 months or more at the time of WTW enrollment. The remaining primary
eligible was listed as a primary noncustodial but the file included evidence of custodial
parent with income below the poverty line. We determined that all six participants met the
respective 30 percent criteria and should have been classified accordingly.

The misclassifications by ALC overstated the 70 percent category and understated the 30
percent category. The improper classification of participants also can affect the QFSR
reporting process when reporting the QFSR individual line item expenditures. We believe


DOL-OIG Audit Report No. 05-03-002-03-386                                                   73
           Abraham Lincoln Centre Response to DOL Welfare-to-Work Competitive Grant Audit



the misclassifications occurred because the ALC staff did not obtain documentation of
public assistance prior to servicing clients. ALC's MIS indicates $437 of direct
transportation services were provided on behalf of the participants considered misclassified.
We consider these costs as misclassified because it was not possible to trace the
transportation costs by participant through the ALC accounting system.

Recommendation:

We recommend that the Assistant Secretary for Employment and Training direct the ALC
to:

   a. transfer $437 from the 70 percent to the 30 percent category expenditure accounts
      for the six misclassified participants,
   b. correct their MIS and QFSR to reflect the eight ineligible participants and the six
      misclassified participants, and
   c. implement procedures to ensure evidence of public assistance and/or insufficient
      income prior to servicing clients.

                     ALC Response to DOL Finding 6a – Transfer of $437

A total of 6 participants (12%) were fully eligible however, were misclassified. All
participants have been reclassified appropriately from 70% eligibility to 30% and
support dollars of $437.00 will be moved in the expense reporting. (See spreadsheet)

   ALC Response to DOL Finding 6b – Correction of MIS System Documentation

The audit was conducted on 50 files from the adjusted universe of 589 program
participants. Eligibility testing revealed 8 ineligible and 6 misclassified clients. Of the 8
ineligible files, direct transportation support totaling $428.00 was distributed. (Also
shown in finding #2) ALC was able to obtain documentation from the Non-Custodial
parent unit and the IDHS system to render one (1) client fully eligible at time of
enrollment. Transportation for one day given to this client totaled $5.00. This reduces
total questioned cost to $423.00 (See attached chart for breakdown).

           ALC Response to DOL Finding 6c – Implementation of Procedures

Prior to delivery of the draft audit, ALC implemented recommendations of several
internal program controls to ensure all clients are eligible and appropriately classified
before serving them:



DOL-OIG Audit Report No. 05-03-002-03-386                                                   74
           Abraham Lincoln Centre Response to DOL Welfare-to-Work Competitive Grant Audit




           • Eligibility screening of all documents is conducted upfront during
             weekly client in-take sessions. Clients without necessary documentation
             are asked to return the following with requested documents.
           • ALC request a completed 2151 form from IDHS verifying length of time
             on TANF prior to enrolling.
           • Non-Custodial parent applicants are sent to the NCP unit for
             verification of responsible relative (RR) or alleged father (AF) status
             prior to enrollment. Simultaneously, ALC staff verifies evidence of
             public assistance for the dependent child via access of the IDHS system
             and the printout is kept in the clients’ folder.


                    Table 6a - Eight Participants Considered Ineligible

                                WtW
 #     Name        SSN        Eligibility        Audit                 ALC           Amount
                                 Date           Response             Response         Spent
     Omitted
 1   (by OIG)    Omitted       22-Jun-00    Ineligible         Ineligible              $83.00
     Omitted
 2   (by OIG)    Omitted       15-Nov-01    Ineligible         Ineligible               $0.00
     Omitted
 3   (by OIG)    Omitted        5-Feb-00    Ineligible         Ineligible             $200.00
     Omitted
 4   (by OIG)    Omitted       29-Nov-01    Ineligible         Ineligible               $0.00
     Omitted
 5   (by OIG)    Omitted       22-Nov-99    Ineligible         Ineligible             $120.00
     Omitted
 6   (by OIG)    Omitted       27-Jun-00    Ineligible         Ineligible              $20.00
     Omitted
 7   (by OIG)    Omitted      20-Mar-00     Ineligible         Ineligible               $0.00
     Omitted
 8   (by OIG)    Omitted      29-Aug-01     Ineligible - 30%   reclassified to 70%     -$5.00
       TOTAL                                                                          $423.00




DOL-OIG Audit Report No. 05-03-002-03-386                                                   75
           Abraham Lincoln Centre Response to DOL Welfare-to-Work Competitive Grant Audit




                             WtW
#         Name            Eligibility           Audit                             ALC
                             Date             Response                         Response
1   Omitted (by OIG)      22-Nov-99      Misclassified as 70%      Reclassified to 30% in 2/2002
2   Omitted (by OIG)        7-Jun-01     Misclassified as 70%      Reclassified to 30% on 2/11/2002
3   Omitted (by OIG)       3-May-01      Misclassified as 70%      Reclassified to 30% on 2/11/2002
4   Omitted (by OIG)      23-Oct-00      Misclassified as 70%      Reclassified to 30% on 2/11/2002
5   Omitted (by OIG)      28-Aug-00      Misclassified as 70%      Reclassified to 30% on 2/11/2002
6   Omitted (by OIG)      29-Nov-01      Misclassified as 70%      Reclassified to 30% on 3/25/2002




DOL-OIG Audit Report No. 05-03-002-03-386                                                   76
